<html>
<title> - STAKEHOLDER PERSPECTIVES ON ADDRESSING MIGRATION PUSH FACTORS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                    STAKEHOLDER PERSPECTIVES ON ADDRESSING 
                             MIGRATION PUSH FACTORS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         OVERSIGHT, MANAGEMENT,
                           AND ACCOUNTABILITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 6, 2021

                               __________

                           Serial No. 117-13

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                               
             

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-005 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------                             

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            John Katko, New York
James R. Langevin, Rhode Island      Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     Clay Higgins, Louisiana
J. Luis Correa, California           Michael Guest, Mississippi
Elissa Slotkin, Michigan             Dan Bishop, North Carolina
Emanuel Cleaver, Missouri            Jefferson Van Drew, New Jersey
Al Green, Texas                      Ralph Norman, South Carolina
Yvette D. Clarke, New York           Mariannette Miller-Meeks, Iowa
Eric Swalwell, California            Diana Harshbarger, Tennessee
Dina Titus, Nevada                   Andrew S. Clyde, Georgia
Bonnie Watson Coleman, New Jersey    Carlos A. Gimenez, Florida
Kathleen M. Rice, New York           Jake LaTurner, Kansas
Val Butler Demings, Florida          Peter Meijer, Michigan
Nanette Diaz Barragan, California    Kat Cammack, Florida
Josh Gottheimer, New Jersey          August Pfluger, Texas
Elaine G. Luria, Virginia            Andrew R. Garbarino, New York
Tom Malinowski, New Jersey
Ritchie Torres, New York
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                          Natalie Nixon, Clerk
                                 ------                                

       SUBCOMMITTEE ON OVERSIGHT, MANAGEMENT, AND ACCOUNTABILITY

                  J. Luis Correa, California, Chairman
Dina Titus, Nevada                   Peter Meijer, Michigan, Ranking 
Donald M. Payne, Jr., New Jersey         Member
Ritchie Torres, New York             Dan Bishop, North Carolina
Bennie G. Thompson, Mississippi (ex  Diana Harshbarger, Tennessee
    officio)                         John Katko, New York (ex officio)
                Lisa Canini, Subcommittee Staff Director
         Eric Heighberger, Minority Subcommittee Staff Director
                  Geremiah Lofton, Subcommittee Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Peter Meijer, a Representative in Congress From the 
  State of Michigan, and Ranking Member, Subcommittee on 
  Oversight, Management, and Accountability:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     8

                               Witnesses

Ms. Shannon O'Neil, Vice President, Deputy Director of Studies, 
  Nelson and David Rockefeller Senior Fellow for Latin America 
  Studies, Council on Foreign Relations:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Mr. Daniel A. Restrepo, Senior Fellow, Center for American 
  Progress:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Mr. Ariel G. Ruiz Soto, Policy Analysis, Migration Policy 
  Institute:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Steven Hinkley, Sheriff, Calhoun County, Michigan:
  Oral Statement.................................................    26
  Prepared Statement.............................................    27

 
     STAKEHOLDER PERSPECTIVES ON ADDRESSING MIGRATION PUSH FACTORS

                              ----------                              


                         Thursday, May 6, 2021

             U.S. House of Representatives,
                    Committee on Homeland Security,
                    Subcommittee on Oversight, Management, 
                                        and Accountability,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., via 
Webex, Hon. J. Luis Correa [Chairman of the subcommittee] 
presiding.
    Present: Representatives Correa, Titus, Torres, Meijer, 
Bishop, and Harshbarger.
    Chairman Correa. The Subcommittee on Oversight, Management, 
and Accountability will now come to order. Without objection, 
the Chair is authorized to declare the subcommittee in recess 
at any point. Let me start by thanking all of you for joining 
us today.
    We're here to discuss what drives people in Central America 
to leave their homes and migrate north to the United States. In 
recent weeks, we have all had the chance to visit El Paso, 
Texas, and like many of you did, what I was saw was tragic. 
Unaccompanied children at our doorstep and we are doing 
everything we can. We are doing the best we can to take care of 
these children.
    I had the chance to meet and speak with Yuri and Yareli, 
the 3- and 5-year old girls who many of you saw on TV were 
thrown over the 12-foot barrier by smugglers. They were 
traumatized but thank goodness, they were safe. The Border 
Patrol officers showed me the spot where the girls were thrown 
over the wall. If it were not for those alert Border Patrol 
officers, with their high-tech long-distance night vision 
equipment, those girls would surely have died a horrible death 
in the middle of the desert. I have heard many other stories of 
sexual assaults, rapes, and crimes inflicted upon these 
refugees, upon these children, as they travel north.
    Separately, I also had the chance to visit a shelter in 
Tijuana, Mexico. A shelter for families, moms and dads with 
children. These were families deported summarily under Section 
42 of the Health Code. I saw lots of pain. Families trying to 
figure out what they were going to do after spending their life 
savings on a smuggler and left stranded from home with no 
resources and nowhere to turn.
    It is always painful to see refugees in this condition. 
Yet, this is not new. Back in 2008, I had to visit similar 
refugee camps for unaccompanied minors. I have to say the faces 
were different, yet the look of pain and despair was 
essentially the same.
    As a Nation, we have a habit of focusing on the immediate 
challenges at our Southern Border and rarely do we take a step 
back to look at the bigger picture. So, today, we are going to 
talk about the long-standing causes of migration and the role 
our country can play as a regional partner.
    For decades, the Northern Triangle countries of Guatemala, 
Honduras, and El Salvador have struggled to combat wide-spread 
violence, political instability, corruption, and food 
insecurity.
    These long-standing problems have only been made worse by 
recent natural disasters and the COVID-19 pandemic. Both of 
these factors, of course, have crippled the local economies, 
caused more hunger, more unemployment, and more starvation. 
When you are starving, you have no choice but to head north.
    At the moment, President Biden is sending over $400 million 
to Central America in humanitarian aid to address some of the 
most pressing needs of the region, including emergency food. 
Yet money for food and shelter will not address the systemic 
corruption, inequality, and violence that disrupts economic 
activity and social growth in that region. That is why the 
President has also outlined an ambitious 4-year, $4 billion 
plan to address these long-standing factors that drive 
migration from Central America to the United States.
    This strategy will require collaboration with regional 
partners to best understand the individual problems in each 
country and to ensure that these regional governments also have 
skin in the game.
    As you know, Vice President Harris is spearheading this 
diplomatic outreach. Just last week, she met with the 
Guatemalan president and committed resources from our own 
Department of Homeland Security. It is my understanding that 
DHS is working to develop partnerships with the Central 
American governments to develop a framework to manage migration 
in the region. DHS is also advising and working closely with 
local officials in Central America in those countries to 
strengthen custom enforcement and to prevent illegally obtained 
wealth from exiting the country as another way to combat local 
government corruption. DHS is also assisting these countries in 
improving security and helping them fight wide-spread violence 
from gangs and trans-national criminal organizations.
    But this is just a start. There is so much more that needs 
to be done. This administration and future administrations 
can't do it alone. We need to activate the private sector, give 
them incentives to play a central role in creating good jobs, 
good paying jobs in Central America. We, Congress, that is us, 
need to oversee progress or lack thereof in Central America.
    It is interesting because the only time we, as an 
institution, look in Central America is when we see smoke. The 
only time Congress really acts is when there is a fire.
    As a Nation, we have been fighting endless wars in 
Afghanistan and Iraq, and other parts of the world. Yet, we 
have overlooked our own backyard. Ignoring the ever-growing 
economical and political instability in our own hemisphere.
    Congress needs to send a message to the Central American 
leaders. We will be watching you and we must actually watch 
what is going on, on a day-to-day basis. Understanding the 
failures and successes of past programs implemented in Central 
America is key to creating effective and meaningful change. We 
have seen that with continued and targeted support, the United 
States can help Central American countries grow and be 
prosperous, more secure, and much more politically stable.
    To that end, today I look forward to hearing from our 
witnesses about the living conditions that push migration north 
from Central America and how the United States can most 
effectively help our regional partners build communities that 
provide hope to people without hope.
    Again, I thank all of you today for joining us.
    [The statement of Chairman Correa follows:]
                  Statement of Chairman J. Luis Correa
                              May 6, 2021
    We're here to discuss what drives people in Central America to 
leave their homes and migrate north to the United States. Far too often 
we focus on the immediate challenges on our Southern Border and don't 
take a step back to look at the bigger picture. So today we are going 
to talk about the long-standing causes of migration and the role our 
country can play as a regional partner.
    For decades, the Northern Triangle countries of Guatamala, 
Honduras, and El Salvador have struggled to combat wide-spread 
violence, political instability, corruption, and food insecurity. These 
long-standing problems have only been exacerbated by recent natural 
disasters and the COVID-19 pandemic, which have crippled economies and 
left thousands on the brink of starvation and homelessness. As people 
lose hope in a better future, they feel there is no other choice but to 
make the dangerous trip north. Efforts to reduce migration cannot 
succeed without addressing this overwhelming and pervasive feeling of 
hopelessness. Until they have a reason to stay, people will continue to 
leave their home countries and seek a better future for themselves and 
their children elsewhere.
    In order to address some of the most pressing needs of the region, 
including emergency food services and disaster relief, President Biden 
plans to send over $400 million to Central America in humanitarian aid. 
Aid money for food and shelter alone will not address the systemic 
corruption, inequality, and violence that disrupts economic and social 
growth. Which is why the President has also outlined an ambitious 4-
year, $4 billion plan to address these long-standing factors driving 
migration from Central America. This strategy will require close 
collaboration with regional partners to best understand the individual 
problems in each country and to ensure that there is buy-in on U.S. 
involvement.
    Vice President Harris has spearheaded this diplomatic outreach, and 
just last week she met with the Guatamalan president and committed 
resources from the Department of Homeland Security (DHS). Working to 
develop partnerships with foreign governments is part of how DHS is 
contributing to the overall goal of developing a framework for managing 
migration in the region. Acting in an advisory capacity, the Department 
has worked closely with local officials in Central American countries 
to strengthen customs enforcement and prevent illegally obtained wealth 
from exiting the country, a key way to combat Government corruption.
    Furthermore, DHS has assisted Northern Triangle countries with 
efforts to improve security and prevent wide-spread violence at the 
hands of gangs and trans-national criminal organizations.
    But there is still a great deal of work that needs to be done. I am 
looking forward to hearing from our witnesses today on how we can make 
sure that U.S. resources are utilized to the greatest extent possible.
    Understanding the failures and success of past programs implemented 
in Central America is key to creating effective and meaningful change 
moving forward. That means making sure that our plans take into 
consideration the realities of the moment. For example, communities 
must be built back with an understanding of how climate change will 
continue to impact the region. And assistance to overworked and 
underfunded public health systems is particularly critical in the on-
going fight against COVID-19. We have seen that with continued and 
targeted support, the United States can help Central American countries 
grow more prosperous, secure, and politically stable.
    To that end, I look forward to hearing from our witnesses today 
about the living conditions that push people to migrate from Central 
America and how the United States can most effectively help our 
regional partners build communities that provide people with hope.

    Chairman Correa. The Chair now recognizes our Ranking 
Member of the subcommittee, the gentleman from Michigan, Mr. 
Meijer, for an opening statement. Mr. Meijer.
    Mr. Meijer. Thank you, Mr. Chairman. Thank you for holding 
this hearing today, the first of this Congress of the 
Oversight, Management, and Accountability Subcommittee on this 
important topic.
    I am very excited to serve and honored to serve as the 
Ranking Member of this subcommittee. I am sure it will be one 
of many productive hearings we hold going forward to address 
this issue, especially relevant as we continue to deal with the 
fallout of the crisis at our Southern Border. I also want to 
say, Mr. Chairman, I strongly agree with your belief that we 
should not only be looking to regions when there is smoke. I 
firmly believe that we should be viewing the world not as a 
series of discrete problems to solve, but one in which we 
maintain focus, we maintain awareness, and address the 
challenges that we will be enduring in various forms.
    Just a few weeks ago, I visited the border with several of 
our Homeland Security colleagues, including Congresswoman 
Harshbarger, who is here with us today. I also know that 
Congressman Bishop has been to the border with the Judiciary 
Committee. So, we have seen these issues and situations up 
close, as you, Mr. Chairman, have also seen in your recent trip 
to the border.
    This crisis exemplifies many of the problems with our 
current system. While the need for comprehensive immigration 
reform, including more effective border security, is clear, it 
is also important that we understand why so many individuals 
and families continue to make the perilous journey to our 
Southern Border.
    Although I believe that the current crisis has been 
unnecessarily caused or accelerated by misguided policies, I 
also understand that there are complex, interconnected sets of 
factors that play into the decision to leave one's country. For 
the Northern Triangle countries of El Salvador, Guatemala, and 
Honduras, where most migrants are coming from today who are 
coming across our border, these factors include systemic and 
entrenched corruption, poverty, food insecurity, violence, and 
a lack of economic opportunity that often precludes them from 
making a better life for themselves and their families in their 
home countries. If we recognize the humanity of each person 
making this journey, often coming from a place of desperation, 
the need to address this current crisis and find long-term 
solutions becomes ever clearer.
    Before coming to Congress, I saw communities struggle with 
these kinds of crises around the world. I led disaster response 
operations to assist communities impacted by natural disasters. 
I spent 2 years in Afghanistan as a conflict analyst with the 
aid community there, working to protect aid workers and those 
delivering vital assistance to others in need.
    To be clear, I do not fault those who seek a better life 
for their families, but the current administration's rhetoric 
and policies also encourage thousands of migrants to put 
themselves, and in many cases, their family members and young 
children, in danger. The actions taken by the administration in 
the first days of office have helped accelerate the crisis we 
are seeing today. Specifically, halting border wall 
construction funded by Congress, implementing catch-and-release 
policies, eliminating the Remain in Mexico policy to deter non-
meritorious claims, and canceling asylum and cooperation 
agreements with our Central American partners that would have 
allowed migrants to seek asylum closer to home as those claims 
were adjudicated.
    Some of the statistics that we are seeing are heart-
breaking. CBP is on track to encounter more than 2 million 
migrants crossing the border by the end of the year. More than 
4 times the number from fiscal year 2020. Between February 19 
and April 22 of this year, TSA assisted approximately 7,200 
migrants at 10 border airports in document verification, 
bypassing standard photo ID requirements, boarding domestic 
flights, and with unsure and unclear COVID-19 results in 
addition.
    According to Border Patrol agents, migrants are paying 
smugglers on average $4,000 to reach the Southern Border. That, 
again, just complicates and emphasizes the economic burden that 
is being placed on individuals and the horrific conditions that 
they are put in on this journey.
    I am aware that the administration has recently announced 
$300 million in funding for Northern Triangle countries and has 
proposed a $4 billion aid package to address this instability 
and other issues in the region. A long-term engagement with our 
regional partners is important. I also note that foreign 
assistance must be carefully targeted, monitored, and 
transparent on both sides to ensure that these funds are not 
being wasted and are going to have maximum impacts to address 
this challenge.
    Without real metrics and closer collaboration between the 
different Government agencies engaged in the region, there is 
no reason to believe that more money will lead to more 
progress. I look forward to us talking about how to most 
efficiently allocate funding during this hearing. This kind of 
long-term engagement will take sustained attention and focused 
effort. Something that we can struggle to produce at times.
    I am honored to serve on this important subcommittee so 
that, again, we can bring that focus, we can bring that effort, 
that dedication to not just viewing the world as a series of 
problems to solve, but challenges that we must manage, that we 
must retain attention towards, and that we must be emphatic in 
ensuring that conditions improve.
    One of the key frustrations with this issue coming to 
Congress is that while there are rhetoric and conversations at 
the National level, we are also seeing many impacts at the 
local level. I am honored to have Sheriff Hinkley from Calhoun 
County in my district joining us here today, where over 100 
unaccompanied migrant children were recently relocated to a 
non-profit facility for care.
    Michigan is always willing to help those who are vulnerable 
and in need. But we need to make sure that unaccompanied 
children, the policies surrounding that, have the most 
appropriate oversight to ensure that humane care, appropriate 
conditions, and other standards are met.
    My witness today will be able to offer that needed local 
perspective, talk more about the local impacts of this crisis 
and immigration policies, in general, and what they have heard 
from States and localities. So, Mr. Chairman, thank you again 
for holding this hearing. I look forward to hearing from our 
distinguished witnesses today. I yield back.
    [The statement of Ranking Member Meijer follows:]
                Statement of Ranking Member Peter Meijer
    Mr. Chairman, thank you for holding this hearing today--the first 
of this Congress for the Oversight, Management, and Accountability 
Subcommittee. I am very excited and honored to serve as the Ranking 
Member of this subcommittee and am sure that this is the first of many 
productive hearings we will hold.
    The hearing today is especially relevant as we continue to deal 
with the fallout of the crisis at our Southern Border.
    Mr. Chairman, I strongly agree with your belief that we should not 
only be looking to regions when there is smoke. I firmly believe that 
we should be viewing the world not as a series of discrete problems to 
solve but one in which we maintain focus, we maintain awareness, and we 
address challenges that will be enduring in various forms.
    Just a few weeks ago, I visited the border with several of our 
Homeland Security colleagues, including Congresswoman Harshbarger who 
is with us today. I know that Congressman Bishop has also been to the 
border with the Judiciary Committee, so we have all seen the issues and 
situation up close, as you, Mr. Chairman, have also seen in your recent 
trip to the border.
    This crisis exemplifies the problems with our current system. While 
the need for comprehensive immigration reform, including more effective 
border security, is clear, it is also important that we understand why 
so many individuals and families continue to make the perilous journey 
to our Southern Border. Although I believe that the current crisis has 
been unnecessarily caused or accelerated by misguided policies, I also 
understand that there are complex, interconnected sets of factors that 
play into the decision to leave one's country.
    For the Northern Triangle countries of El Salvador, Guatemala, and 
Honduras, where most migrants are coming from today, these factors 
include systematic and entrenched corruption, poverty and food 
insecurity, violence, and a lack of economic opportunity that often 
precludes them from making a better life for themselves and their 
families in their home countries. If we recognize the humanity of each 
person making this journey, often coming from a place of desperation, 
the need to address this current crisis and find long-term solutions 
becomes even clearer.
    Before coming to Congress, I saw communities struggle with these 
kinds of crises around the world. I led disaster response operations to 
assist communities impacted by natural disasters and spent 2 years in 
Afghanistan as a conflict analyst with the aid community, working to 
protect aid workers and those delivering vital assistance to others in 
need.
    To be clear: I do not fault those who seek a better life for their 
families, but the current administration's reckless rhetoric and 
policies have encouraged hundreds of thousands of migrants to put 
themselves, and in many cases their family members and young children, 
in danger. Many actions taken by the administration in the first few 
days in office have helped accelerate the crisis we're seeing today. 
Specifically,
  <bullet> Halting border wall system construction funded by Congress;
  <bullet> Implementing ``catch-and-release'' policies;
  <bullet> Eliminating the Remain in Mexico Policy to deter non-
        meritorious asylum claims;
  <bullet> And canceling Asylum Cooperative Agreements with our Central 
        American partners that would have allowed migrants to seek 
        asylum closer to home.
    And the statistics we're seeing are heartbreaking:
  <bullet> CBP is on track to encounter more than 2 million migrants 
        crossing the U.S.-Mexico border by the end of this fiscal 
        year--more than 4 times the number encountered in fiscal year 
        2020.
  <bullet> Between February 19--April 22, TSA assisted approximately 
        7,200 migrants at 10 border airports in document verification, 
        allowing them to bypass standard government-issued photo ID 
        requirements and board domestic flights.
  <bullet> And according to Border Patrol agents, migrants are paying 
        smugglers on average $4,000 to reach the Southern Border.
    I am aware that the administration has recently announced $300 
million in funding for Northern Triangle countries and has proposed a 
$4 billion aid package to address instability and other issues in the 
region. While long-term engagement with our regional partners is 
important, I also know that foreign assistance needs to be carefully 
targeted, monitored, and transparent on both sides, to ensure these 
funds are not being wasted.
    Without real metrics and closer collaboration between the different 
U.S. Government agencies engaged in the region, there is little reason 
to believe that more money will lead to more progress. I look forward 
to talking about how to most efficiently allocate those resources 
during this hearing. This kind of long-term engagement will take 
sustained attention and focused effort, something that we can struggle 
to produce at times.
    I'm honored to serve on this important subcommittee so that we can 
bring that focus, we can bring that attention, we can bring that 
effort, that dedication to not just viewing the world as a series of 
problems to be solved but challenges that we must manage and we must 
maintain attention toward, and we must be emphatic in ensuring that 
conditions improve.
    One of the key frustrations with the issue of immigration since 
coming to Congress is that while the rhetoric and the conversation is 
happening at the National level, the impacts are felt most at the local 
level. I'm honored to have Sheriff Hinkley joining us here today from 
Calhoun County in my district, where over 100 unaccompanied migrant 
children were recently relocated to a non-profit facility for care. 
Michigan is always willing to help those who are vulnerable and in 
need, but we need to make sure the policies surrounding unaccompanied 
children have the most appropriate oversight to ensure humane care, 
appropriate conditions, and other standards are met. My witness today 
will be able to offer that needed local perspective and talk more about 
some of the local impacts this crisis, and immigration policies in 
general, have on States and localities.
    Mr. Chairman, thank you again for holding this hearing. I look 
forward to hearing from our witnesses.

    Chairman Correa. Members are reminded that the committees 
will operate according to the guidelines laid out by the 
Chairman and Ranking Member in their February 3 colloquy 
regarding remote procedures. Now, I would like to welcome our 
panel of witnesses.
    First, we have Ms. Shannon O'Neil. Ms. O'Neil is vice 
president, deputy director of studies and Nelson and David 
Rockefeller senior fellow for Latin American studies with the 
Council on Foreign Relations. She is an expert on Latin 
America, global trade, U.S.-Mexico relations, corruption, 
democracy, and immigration.
    Our second witness is Mr. Dan Restrepo, a senior fellow at 
the Center for American Progress. Mr. Restrepo created and 
directed the American Project where at the center that focuses 
on Latin America and the role of Hispanics in the United 
States, their future, and the implications for public policy. 
For nearly 6 years, he served as a principal advisor to 
President Obama on issues related to Latin America, the 
Caribbean, and Canada.
    Our third witness, Mr. Ariel Ruiz Soto, is a policy analyst 
at the Migratory Policy Institute. His research focuses on the 
impact of U.S. immigration policies and procedures on 
immigrants and other populations and the interaction between 
United States, Mexican, and Central American migration 
policies.
    Now, I will have our Ranking Member, Mr. Meijer, introduce 
our final witness.
    Mr. Meijer. Thank you, Mr. Chairman. Our final witness is 
Sheriff Hinkley of Calhoun County. Sheriff Hinkley has served 
in that role in law enforcement for 29 years. He has a 
distinguished background in law enforcement and has been a 
pivotal force in the west Michigan community to both deal with 
some of the local impacts of the migration crisis and of 
immigration in general, but also ensuring that we have 
inclusive, comprehensive, and humane treatment of all. Thank 
you, Mr. Chairman.
    Chairman Correa. I thank the Ranking Member, Mr. Meijer. 
Without any objection, the witnesses' full statements will be 
inserted into the record. Member statements may also be 
submitted for the record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                              May 6, 2021
    As I mentioned during a hearing on unaccompanied children last 
week, the situation at the Southern Border is not a new challenge. 
Neither are the reasons people try to come to the United States. 
Instability in Central America, especially in the Northern Triangle, 
has been a key driver of migration to the Southern Border since 2014. 
High rates of poverty and violence have led thousands of families and 
children to leave in search of a better, safer life. Rather than 
continue efforts to improve living conditions in the region, the Trump 
administration repeatedly sought to scale back funding for Central 
America.
    Following a surge of migrants from the Northern Triangle in 2019, 
President Trump cut $400 million in U.S. assistance to the region and 
suspended the remaining aid for more than a year. Similar to his other 
cruel immigration policies, this did little to deter migration. 
Instead, it made conditions in the Northern Triangle even worse. The 
COVID-19 pandemic and an especially bad hurricane season in 2020 caused 
further devastation--leading to greater poverty and economic 
inequality. It is no wonder why the flow of migrants began to increase 
over the last year. While Republicans insist on calling the situation 
at the Southern Border a crisis, the real crisis is the conditions in 
some Central American countries that are pushing people north.
    I applaud the Biden administration for committing to addressing the 
root causes of migration as part of a broader plan to overhaul our 
broken immigration system and implement more humane policies. The 
Department of Homeland Security (DHS) will be a key partner in carrying 
out this plan and the committee stands ready to support its efforts. 
Reducing the flow of migration to more regular and manageable levels 
will allow DHS to focus on its other vital missions, such as 
strengthening cybersecurity and combatting domestic terrorism. But 
progress will not be made overnight.
    As Vice President Harris--who is leading the administration's 
effort to engage with Central America--said: ``If it were easy, it 
would have been solved a long time ago.'' Meaningful change will 
require long-term investments, effective partnerships, and cooperation 
from leaders who have benefited from systemic corruption. But it can be 
done. And the last 4 years has shown us, that doing nothing to address 
the push factors of migration will only make conditions worse.
    I look forward to hearing from our witnesses today on possible ways 
Congress and the administration can best address these push factors in 
the short- and long-term.

    Chairman Correa. Now, I'm going to ask each witness to 
summarize his or her statements for 5 minutes. We will start 
with Ms. O'Neil. Welcome, Ms. O'Neil.

STATEMENT OF SHANNON O'NEIL, VICE PRESIDENT, DEPUTY DIRECTOR OF 
 STUDIES, NELSON AND DAVID ROCKEFELLER SENIOR FELLOW FOR LATIN 
         AMERICA STUDIES, COUNCIL ON FOREIGN RELATIONS

    Ms. O'Neil. Great, thank you, Mr. Chairman. Thank you, 
Ranking Member Meijer, and Members of the subcommittee. I am 
really grateful for the invitation to talk here with you today.
    The number of Central Americans and Mexicans that are 
arriving at the U.S. Southern Border has been growing since 
April 2020. So, this is now over a year-long rise that reflects 
the exacerbations of long-term chronic conditions in these 
nations. These are conditions that push people out of their 
homes, their communities, and ultimately, their countries, in 
search of safety and opportunity.
    To change and to dissuade this movement, the United States 
and others need to address some immediate acute factors, as 
well as longer-term structural factors that are behind this 
migration. In these opening remarks, I am going to focus my 
time on the longer-term structural factors and I am going to 
leave the immediate ones to my colleague, Dan Restrepo.
    So, these underlying issues driving so many people to the 
U.S. border, they include things like economic devastation and 
hunger. They include violence and the fear of violence. They 
include climate change and extreme weather events. They also 
result from the pull of deep family ties and community ties to 
what is increasingly an opening and growing and vibrant U.S. 
economy. Now, these are not new issues, these pull and push 
factors. They are not new issues for these nations, nor for 
their citizens. But they are vitally important in shaping the 
decisions of now hundreds of thousands of Central Americans and 
Mexicans when they are trying to decide whether or not to leave 
their homelands.
    Creating economic opportunities, improving physical safety, 
and helping individuals adapt to climate changes, particularly 
in agriculture, these are all important for altering the 
migration calculations of individuals, of families, and 
communities. So, as we think about U.S. Government programs and 
U.S. Government assistance, they should focus on these long-
term issues and try to do just that, change the calculations of 
these individuals.
    Education is an important, and I would say the first, place 
to start. Most Central American and Mexican young people have 
not yet returned to in-person school. So, this leaves them on 
the streets, where they are vulnerable to gangs or other 
criminal networks. It limits their ties to their communities. 
It limits their access to after-school programs, to tutoring, 
or to other efforts to help them grow into self-assured and 
productive adults.
    Longer-term, education provides different economic 
opportunities and different potential livelihoods for these 
young people. So, safely reopening schools and making sure as 
many children as possible return to those schools after having 
been away for over a year, this is vital for the next 
generation of Central Americans and Mexicans. Frankly, for the 
future trajectory of the economics, of the politics, and of the 
migration flows from these nations. So, I would focus on 
education.
    You know, important too are programs that are outside the 
classroom that can change the mindsets and the direction for 
young people in these nations. So, this should include various 
initiatives to mentor young people, to help them build life 
skills, to give them a first initial work opportunity to start 
building a resume. To help them heal from trauma, because so 
many of them have experienced that in their nations.
    Studies show that these kinds of efforts can make a 
difference in their lives. It can help embed them and tie them 
to their communities at home. It can lesson the power of the 
factors that drive them to migrate.
    Rural agricultural communities, they need support too, and 
different kinds of support. For families to stay and continue 
farming, many need the type of aid that will allow them to set 
up drainage systems or irrigation systems. They need assistance 
in moving from the crops they grow today to shifting to crops 
that are more weather resistant or facing the new kinds of 
climate changes that they now experience on a regular basis. Or 
they need help introducing them to new markets where they can 
sell their goods. Or thinking about other kinds of produce or 
other kinds of products that have higher-value margins so that 
they can actually earn more for each crop rotation that they 
are planting. Enabling these livelihoods in farming, and then 
letting them to continue, and in many places prosper, this too, 
can change the migration calculations for perhaps hundreds of 
thousands of people in these nations.
    Now, complementing these programs, the U.S. Government 
should explicitly take on corruption that makes it so hard for 
so many of these people to stay in their countries. So, that 
means reestablishing internationally-funded anti-corruption 
bodies. It means bolstering the work of reformers in these 
countries. It means the United States should provide no harbor, 
either personally or financially, for political officials or 
business leaders that are engaged in corruption.
    Let me just end on good news. The good news is the United 
States has real partners in the large numbers of businesses, 
non-profit organizations, families, and citizens that want to 
make their communities in their nations better and fairer and 
more inclusive. They want to make their nations a place where 
people can stay. So, the United States should work with these 
allies to play an important role. It should work to bring hope, 
to bring opportunity, and to change the realities on the ground 
that today make it so necessary for people to leave. Thank you.
    [The prepared statement of Ms. O'Neil follows:]
                  Prepared Statement of Shannon O'Neil
                              May 6, 2021
   migrants at the southwest border: push factors & policy solutions
    Chairman Correa, Ranking Member Meijer, and Members of the 
subcommittee: Thank you for the invitation to testify today. I am 
grateful for the subcommittee's interest in Central American and 
Mexican migration and to have this opportunity to discuss U.S. policy 
options to address this chronic issue. As always, I am eager to hear 
your advice and answer any questions.
    Between January and April 2021, CBP apprehended 570,000 people, a 
mix of individuals and families, at the southwest U.S. border.\1\ If 
this pace continues, 2021 apprehensions will exceed previous recent 
peaks in 2019 and 2014-2015, though still remain below those of the 
late 1990's and early 2000's.
---------------------------------------------------------------------------
    \1\ U.S. Customs and Border Protection. ``CBP Enforcement 
Statistics Fiscal Year 2021,'' April 2021. https://www.cbp.gov/
newsroom/stats/cbp-enforcement-statistics/. Calculations based on 
Customs and Border Protection (U.S. Border Patrol and Office of Field 
Operations) data.
---------------------------------------------------------------------------
    The migration spikes of the last decade have been largely driven by 
the rising movement of Central Americans. Today roughly half of the 
individuals, and 9 out of 10 of the families, that arrive at the 
southern U.S. border come from Central America's Northern Triangle 
countries of Guatemala, Honduras, and El Salvador. This exodus results 
from a number of chronic push factors. It also results from the pull of 
a recovering U.S. economy and the deep familial and community ties 
between the United States and the sending nations.
Economic Insecurity, Violence, and Bad Governance Push Central 
        Americans North
    One of the biggest challenges is economic insecurity. These 
economies have expanded more slowly than many other emerging markets in 
recent years. Tepid growth rates reflect the direct and indirect costs 
of violence, corruption, extortion, and poor governance, which has 
limited local and foreign investment and formal sector job 
opportunities.
    COVID-19 hit the 3 economies hard, the IMF estimating declines of 2 
percent in Guatemala, 9 percent in El Salvador, and nearly 7 percent in 
Honduras. Millions in the region have fallen into poverty, and hunger 
and malnutrition are on the rise.
    Extreme weather and climate changes have exacerbated these economic 
difficulties, pushing more Central Americans to leave. Tropical Storm 
Eta and Hurricane Iota, both dubbed once-in-a-century storms that hit 
just 2 weeks apart in November 2020, directly displaced over 100,000 
people and, according to the United Nations, affected over 7 million 
more as mudslides buried homes and fields, shut down hospitals, and 
cutoff access to clean water.\2\
---------------------------------------------------------------------------
    \2\ ``Central America: Tropical Storm Eta & Hurricane Iota--Six 
Weeks Later (as of 22 December 2020).'' OCHA, December 22, 2020. 
https://reliefweb.int/sites/reliefweb.int/files/resources/2020-12-
23%206W%20After%20%28ENG%29.pdf.
---------------------------------------------------------------------------
    Significant swathes of El Salvador and Honduras, along with 
portions of Guatemala, Nicaragua, and Costa Rica, make up what has come 
to be called the ``Dry Corridor,'' an agricultural area hit hard by a 
years' long drought. The U.N. World Food Programme estimates that 
nearly 1 million farmers are now facing severe crises. Losing crops and 
often titles to land fuels migration.
    Violence too pushes tens of thousands to leave. The Northern 
Triangle remains one of the most dangerous places in the world. 
Homicides rates in Guatemala and Honduras routinely top 20 and 44 per 
100,000 citizens respectively. El Salvador's murder rate has declined 
in recently years, but still counted some 36 murders per 100,000 in 
2019. Gangs, some of them transnational in nature, effectively control 
significant territory in many of these nations, robbing, kidnapping, 
extorting, and assaulting fellow citizens. The lack of legal options or 
protections for citizens if pressured or preyed upon spurs migration as 
well. Michael Clemens at the Center for Global Development has found 
that violence promotes child and unaccompanied minor migration in 
particular, calculating that 6 more homicides in Central America led to 
nearly 4 additional children to be apprehended at the U.S. border.\3\ 
Gender-based violence is another driver, particularly for the women and 
children presenting themselves at the U.S. border. The 3 Central 
American nations have the highest rates of femicide in the hemisphere.
---------------------------------------------------------------------------
    \3\ Clemens, Michael A. ``Violence, Development, and Migration 
Waves: Evidence from Central American Child Migrant Apprehensions.'' 
CGD Working Paper 459. Washington, DC: Center for Global Development. 
July 2017. https://www.cgdev.org/publication/violence-development-and-
migration-waves-evidence-central-american-child-migrant.
---------------------------------------------------------------------------
    Corruption and poor governance more broadly drive migration. They 
lead to poorly-executed infrastructure that is more likely to crumble 
in the face of natural disasters, building codes ignored for a price. 
Funds to alleviate tragedies or provide benefits and opportunities to 
citizens are instead siphoned off. Corruption and impunity permit and 
enable violence, leaving individuals fearful for their or their loved 
ones' lives, and often without a choice except to flee. And the 
injustice and discrimination between those on the take or those not 
weaken the community ties that can keep individuals from leaving.
Family Ties and Economic Opportunities Pull Central Americans North
    Two factors in particular pull migrants north. U.S. economic growth 
and the promise of job opportunities encourage people to come. Studies 
show that immigrants find jobs once here, and are more likely to be 
employed than U.S.-born workers.\4\ And Central Americans have deep 
family roots in the United States. For unaccompanied minors arriving at 
the border, a strong majority have a parent or close relative that 
lives in the United States.\5\
---------------------------------------------------------------------------
    \4\ Bureau of Labor Statistics. ``Foreign-Born Workers: Labor Force 
Characteristics--2019.'' News Release. U.S. Department of Labor, May 
15, 2020. https://www.bls.gov/news.release/pdf/forbrn.pdf.
    \5\ Zak, Danilo. ``Fact Sheet: Unaccompanied Migrant Children 
(UACs).'' National Immigration Forum, November 2, 2020. https://
immigrationforum.org/article/fact-sheet-unaccompanied-migrant-children-
uacs/.
---------------------------------------------------------------------------
Mexican Migration is on the Rise
    While the main U.S. focus today is on Central America, we shouldn't 
overlook the rise in Mexican migration to the United States. For nearly 
a decade, net Mexican migration north has been flat or negative. 
According to data from the DHS and the Migration Policy Institute, the 
number of unauthorized Mexicans living in the United States fell by 
nearly 800,000 during the 2010's.\6\
---------------------------------------------------------------------------
    \6\ Migration Policy Institute Data Hub. ``U.S. Immigration 
Trends,'' 2019. https://www.migrationpolicy.org/programs/data-hub/us-
immigration-trends. See: ``Mexican-Born Population Over Time, 1850-
Present.''
    Baker, Bryan. ``Estimates of the Unauthorized Immigrant Population 
Residing in the United States: January 2015-January 2018.'' Population 
Estimates. U.S. Department of Homeland Security Office of Immigration 
Statistics, January 2021. https://www.dhs.gov/sites/default/files/
publications/immigration-statistics/Pop_Estimate/UnauthImmigrant/
unauthorized_immi- grant_population_estimates_2015_2018.pdf.
---------------------------------------------------------------------------
    This trajectory has now changed. From April 2020 until February of 
this year, Mexicans, mostly single adults, outnumbered all other 
nationalities apprehended at the Southern Border. They continue to 
represent nearly half of those crossing the border irregularly. And the 
factors pushing the reversal of earlier trends show few signs of 
lessening.
    Mexico's migrants are largely driven by the push of economic 
insecurity at home, and the pull of economic opportunity here. Mexico's 
economy was stagnating before the pandemic in 2019. It has become one 
of the hardest hit by COVID-19, its GDP falling 8.2 percent in 2020. 
The IMF estimates it will be one of the slowest to recover in Latin 
America: The combination of limited fiscal stimulus and falling 
investment mean the economy won't recoup its pre-pandemic size until 
2023. Meanwhile, the United States is recovering: First quarter GDP 
surged more than 10 percent, and economists expect the economy to 
surpass its pre-COVID-19 size by the end of this year. Job openings are 
rising, particularly in food service, hospitality, construction, and 
other sectors traditionally open to migrants.
    Violence too displaces Mexican individuals, families, and at times 
whole communities from their home towns. Homicide rates hover near 
record highs, and the geographic spread and fragmentation of organized 
crime and gangs has left Mexicans increasingly vulnerable as prey. The 
government's inability or unwillingness to stand up competent police 
and security forces and bolster effective justice systems to enforce 
the rule of law leaves criminal activity largely unchecked in parts of 
the Nation. This too drives Mexicans north.
    Combined with continued corruption, decreasing transparency, and 
poor governance, many Mexican citizens are less hopeful that the 
difficulties they face at home will lessen or end, leading more to 
consider leaving.
What the United States Can Do
    U.S. efforts can and should focus on the immediate challenges 
accelerating the exodus of people from Central America and Mexico. Food 
and shelter are critical concerns. The United States can and should 
provide immediate support for those displaced from their homes by 
natural disasters and other events, and help those suffering from 
rising hunger and malnutrition find basic necessities without having to 
leave their country.
    Diminishing the devastating effects of COVID-19 for personal health 
and for the health of these economies is vital to change the migration 
calculations of individuals and families. Mexico and Central American 
nations should be given priority in U.S. vaccine diplomacy, protecting 
their citizens and enabling their economies to reopen faster.
    Aid to safely reopen schools and extend educational opportunities 
in a COVID-19 world is vital. For over a year the vast majority of 
students in these nations have had no in-person schooling, and the 
quality and access to remote alternatives has been uneven. Getting the 
nations' young people back into the classroom will help staunch 
immediate migratory exits by getting children off the streets and 
providing them with renewed purpose and ties at home. It is also a path 
to address longer-term root causes of migration, helping build skills, 
knowledge, self-confidence, and community roots in the voters and 
workers of the future.
    The United States has a track record of programs that have tackled 
some of the root causes of migration. Many of these have found success 
in helping improve local lives--often at the neighborhood or municipal 
level--of Central Americans. While many of these were halted under the 
previous administration, these types of efforts to better conditions on 
the ground can and should be restarted and expanded. Neighborhood and 
school-based programs that work to reduce gang violence through 
counseling, tutoring, and community service opportunities show promise 
in reducing violence and shifting the calculations of young people as 
to what their future can hold at home. So too do efforts to train young 
people in professional and life skills, and to connect them to their 
communities through local projects, cultural events, and economic 
opportunities.
    Programs to help farmers adjust to drought conditions, such as 
introducing irrigation systems or rust-resistant coffee seedlings, can 
help them keep their living and land at home, making it less necessary 
to leave. Programs designed to connect them directly to markets or to 
upgrade the profitability of the crops they grow can also ensure a more 
sustainable future at home. Other programs providing seed money and 
training for entrepreneurs have at times succeeded in creating economic 
opportunities, improving people's prospects at home and shifting their 
mindset about moving.
    As the United States invests in these local community programs, it 
needs to focus on and push for fundamental changes in the ways these 
nations are governed. Without significant shifts in governance, the 
push for citizens to leave will remain strong. This can and should 
start with reinstating anti-corruption efforts, including backing 
internationally supported investigatory bodies similar to those 
shuttered in recent years in Guatemala and Honduras. It means pushing 
for transparency in the use of international and taxpayer funds. And it 
means turning directly to local civil society and non-governmental 
organizations as partners for U.S.-backed programs, particularly in 
countries where the national government is an unreliable partner. It 
can also mean searching out and supporting subnational government 
administrations and/or national level reformers in the quest to improve 
governance. And more broadly, it means defending democratic checks and 
balances and democracy in these nations.
    The United States can play an important role in denying corrupt 
leaders the ability to visit the United States or to use its financial 
system to hold ill-gotten gains. And it can help prosecutors in these 
countries build cases against corrupt elites.
                                 ______
                                 
    The hundreds of thousands of Central Americans and Mexicans 
crossing the southwestern U.S. border result from a similar number of 
wrenching decisions: Individuals and families being forced to choose to 
leave their homes, friends, and communities. While no single program or 
approach will quickly change these calculations, a combination of 
immediate and long-term investments, of national political reforms and 
micro-level neighborhood interventions, and of multi-pronged programs 
to address the myriad reasons for leaving is the best way to alter 
these choices.
    Migration from Mexico and Central America to the United States has 
been going on for decades. Whatever the United States does, it will not 
end either the deep inequalities or the deep familial ties between the 
nations. But concerted efforts and investments at home can give more 
Mexicans and Central Americans a choice when they consider migration, 
rather than making it a necessity for them and their families to 
survive.

    Chairman Correa. Senor.

  STATEMENT OF DANIEL A. RESTREPO, SENIOR FELLOW, CENTER FOR 
                       AMERICAN PROGRESS

    Mr. Restrepo. Thank you, Mr. Chairman, Ranking Member 
Meijer, and Members of the subcommittee. Thank you for your 
invitation to participate in today's hearing. Disruption, there 
is one idea I want you to take away from my testimony today, is 
that to break a decades-long cycle of crisis response to 
migration in the Americas, we need to disrupt our approach. 
Disruption means appreciating that migration cannot be 
prevented and deterred, at least not over time in a manner 
consistent with our vast laws, values, and interests. Instead, 
it must be mitigated, managed, and ordered. Disruption requires 
us to look at today's topic, migration push factors, to do what 
Shannon just did, to distinguish between the acute causes and 
root causes of migration from northern Central America, and for 
that matter, southern Mexico.
    Making this distinction helps us understand what we can do 
if we want people to be able to stay in their home communities 
now and to relieve pressure from the U.S.-Mexico border in the 
short-term and over the long-term to the greatest extent 
possible. On acute causes, we need to start by addressing the 
effects of hurricanes Eta and Iota. Two once-a-century storms 
that made landfall in northern Central America 2 weeks and 15 
miles apart in November 2020. Directly impacted 11 million 
people across the region, displacing nearly 1 million and 
contributing to growing food insecurity for 5\1/2\ million 
people. We need to do so now.
    After an anemic initial effort by the Trump administration, 
the Biden administration has ramped up humanitarian assistance 
with Vice President Harris, as has been mentioned, last month 
announcing nearly $200 million for the on-going humanitarian 
response. Together with Congress, the administration should 
invest even greater resources in emergency food assistance and 
in programs that put folks across the region to work rebuilding 
their own community. Tapping into the desire of Central 
Americans to build a better future would be far more cost-
effective than simply ramping up enforcement at the U.S.-Mexico 
border.
    The other acute cause of migration from Central America has 
been COVID-19. That has led to significant pain among some of 
the most economically vulnerable populations in the Western 
Hemisphere, while claiming 15,000 lives in the course of the 
last year. When it comes to a COVID response, the United States 
is now, thankfully, in the position to help on something the 
region desperately needs, and that is vaccines. Guatemala, the 
region's larges population has vaccinated only 0.01 percent of 
Guatemalans. Honduras hasn't done any better. They are at 0.03 
percent. El Salvador, which is kind-of leading the way, is at 
1.1 percent of the population vaccinated.
    As the Biden administration begins to share surplus, high-
quality U.S. manufactured vaccines internationally, it should 
prioritize our near abroad. Not simply as a good neighbor, but 
as a smart neighbor who understands that what happens in these 
countries, in effect, is happening in the United States, given 
the deep interconnections we share.
    People, of course, aren't on the move solely in response to 
acute causes. They are, as Shannon pointed out, on the move 
because of poverty and lack of economic opportunity, violence 
and insecurity, weak governance and corruption, adverse effects 
of the climate crisis, and the desire for family reunification, 
among other reasons.
    Effective migration management must address all these 
reasons. But when it comes to root causes, we need to 
understand that many are themselves symptoms of a deeper 
challenge. The uncomfortable truth is that the economies and 
societies of El Salvador, Guatemala, and Honduras are in 
effect, designed to fail broad swaths of their populations in 
the service of economic and political elite and increasingly 
organized crime. Far too many of the people across the region 
are treated, in essence, as export commodities by the powers 
that be. Unless and until we can confront that reality head-on, 
we will simply lurch from one emergency response to the next.
    That leads to my last point about disruption. We must 
intentionally seek to disrupt the failed status quo, to empower 
good governance and market economics, to create conditions so 
people can exercise the right not to have to migrate. The good 
news, and there is good news, as outlined in my prepared 
testimony and that of my colleague, is that the U.S. 
Government, the Executive and Congress, working together and in 
partnership with local civil society, including constructive 
private-sector players, can disrupt the failed status quo by 
focusing on governance, anti-corruption, transparency, and 
other key approaches.
    Thank you, again, for the opportunity to testify this 
afternoon. I look forward to your questions.
    [The prepared statement of Mr. Restrepo follows:]
                Prepared Statement of Daniel A. Restrepo
                         Thursday, May 6, 2021
    The topic of today's hearing--addressing migration push factors--is 
of vital importance as the United States once again finds itself 
grappling with an increased number of migrants seeking entry between 
ports along the U.S.-Mexico border.
    As is implicit in today's topic, effective migration policy that 
serves core U.S. National interests neither begins nor ends at our 
Nation's physical borders. The reason for that is simple as the border 
is just one point in a complex migratory system that stretches 
thousands of miles in both direction from the line of demarcation 
between the United States and Mexico set by the Treaty of Guadelupe-
Hidalgo in 1848.
    Yet for the past 30 years, not just the past 4 years, the United 
States has gotten migration policy wrong in no small part because we 
have thought we could address migration exclusively at the U.S. border 
and that we could enforce our way out of any challenge. We cannot, at 
least not in a sustainable manner that is consistent with our laws and 
our values.
    To stand up a safe, orderly, and humane migration system work 
certainly needs to be done at the border but also on both sides 
thereof. Work that must be in service of a coherent strategy that 
guides an interlocking set of domestic, border, and international 
policies to bring order to migration in the Americas.
    We must, for example, restore the rule of law and values to our 
immigration system, enact changes to detention, enforcement, and 
deportation policies and practices as well as address the status of 
DACA and TPS recipients and undocumented ``essential workers'' as 
President Biden has proposed doing in the Citizenship Act legislation 
currently pending before Congress.
    To promote order in migratory flows and restore U.S. humanitarian 
and human rights leadership, we must also reform migrant processing and 
protection mechanisms at the U.S.-Mexico border; ensure vulnerable 
individuals who urgently need protection are afforded access thereto as 
close to home as possible; and create and expand legal work pathways to 
restore circularity to migration.
    We must also work on the topic of today's hearing--migration push 
factors--to help create conditions so individuals and families 
throughout northern Central America can safely exercise their right to 
live out their lives in their communities and countries of origin as so 
many clearly wish to do.
                     understanding the push factors
    As Members of this subcommittee and other policy makers look to 
build a sustained, integrated approach to migration in the Americas and 
as you look to address migration push factors it is vital to have a 
sophisticated understanding of what leads people to migrate to the 
United States in the first place.
    Individuals from northern Central America are on move today for 
myriad reasons, including poverty and lack of economic opportunity, 
violence and insecurity, weak governance, corruption, natural 
disasters, and a desire for family reunification. Any effective 
migration management system must, at least, begin to address each of 
those reasons.
    But before delving into how, it is important to realize that many 
of those ``push factors'' or ``root causes,'' like migration itself, 
are symptoms of a deeper challenge. The uncomfortable truth is that the 
economies and societies in El Salvador, Guatemala, and Honduras are, in 
effect, designed to fail broad swaths of their populations in service 
of the region's economic and political elites. Far too many people 
across the region are treated, in essence, as export commodities by the 
powers that be. Unless and until we confront that reality head-on, we 
will simply lurch from crisis to crisis.
    Being clear-eyed about the role of these entrenched, corrupt power 
structures is critical to any successful U.S. policy approach that will 
require a level of intrusiveness--on behalf of good governance and 
market economics--that may be uncomfortable but is necessary to instill 
hope among the people of northern Central America and to empower change 
agents inside and outside of governments throughout the region.
    Effectively addressing push factors also requires differentiating 
between kinds of push factors as that differentiation helps think about 
the most effective policy tools the U.S. Government has at its disposal 
to address them. Fundamentally there are 2 kinds of push factors--acute 
causes and root causes. And the U.S. policy tool kit for each is quite 
distinct.
                addressing the acute causes of migration
    The most acute reasons forcing individuals to flee northern Central 
America today are the still devastating effects of Hurricanes Eta and 
Iota--two ``once-a-century storms'' that made landfall 15 miles and 2 
weeks apart in November 2020--and the impact of COVID 19.
    Eta and Iota adversely affected more than 11 million people across 
a region already reeling from the economic impacts of the pandemic. The 
storms displaced nearly 1 million people, many of whom have still not 
been able to return home and devasted crops across the region.
    The initial U.S. response to the hurricanes was, at best, anemic 
with the Trump administration making available $42 million in disaster 
relief, only $21 million of which was utilized. In comparison, in 
response to Hurricane Mitch in 1998, the administration of then-
President Bill Clinton, working together with a Republican-led 
Congress, provided nearly $1 billion in disaster relief and 
reconstruction funding.
    Although the Biden administration has taken steps to significantly 
increase the disaster response, with Vice President Harris announcing 
nearly $200 million in new humanitarian assistance for the region in 
late April 2021 (USAID), the United Nations has warned that 5.5 million 
people across the region are in urgent need of food assistance out of a 
total of 10 million who are in need of humanitarian assistance in 
general. Working together with the U.S. Congress, the Biden 
administration can and should do more, in particular, to head off the 
acute food crisis already unfolding across the region's rural sector.
    Meeting the needs of those suffering from the impacts of Eta and 
Iota also means helping address both the need for community-level 
reconstruction and the need for immediate employment opportunities. 
Fast-disbursing, cash-based programs can and should be stood up to do 
just that.
    It is vital U.S. policy recognize that the people of Central 
America have agency; that the vast majority desperately want to build 
better societies for themselves and their families. We should be 
seeking to leverage that agency in every way possible to help them 
achieve that desire.
    The U.S. Government also has perhaps an unparalleled opportunity to 
address the other acute cause of migration--the on-going devastating 
effects of COVID-19 on the countries of northern Central America. In 
the past 14 months, El Salvador, Guatemala, and Honduras have 
experienced at least 15,000 deaths from COVID-19. They have also seen 
their economies contract by -8.6, -1.5, and -.8.0 percent (IMF) 
respectively. And they are expected to bounce back less quickly than 
most other parts of the Americas with projected economic growth in 2021 
coming in at a 4.2-4.5 percent (IMF).
    Although these countries need international support to address 
these realities, what they need most acutely--especially Guatemala 
(0.01 percent vaccinated) and Honduras (0.03 percent vaccinated)--are 
vaccines. The United States, of course, has an increasing supply of 
highly effective, U.S.-manufactured COVID-19 vaccines. As the Biden 
administration begins to share vaccines broadly around the world, it 
should ensure that it focus first on the countries that constitute our 
``near abroad,'' that is the countries of Central America and the 
Caribbean.
    Doing so is not just about being a good neighbor, it is about being 
a smart neighbor who understands that what happens in these countries 
is, in effect, happening in the United States given the deep 
interconnection we share with our geographically closest neighbors.
    There is another cause of migration that is both acute and root 
that the Biden administration and Congress can and should address--
corruption.
    To understand why and how, consider the following: When a migrant 
caravan formed on January 15, 2021 in San Pedro Sula, Honduras and its 
members set out on their journey many did so chanting ``Fuera, Juan 
Orlando, Fuera!'' or ``Out, Juan Orlando, Out!'' directed at Honduras' 
notoriously corrupt president Juan Orlando Hernandez, a man has been 
repeatedly identified by U.S. Federal prosecutors as an unindicted co-
conspirator in the successful drug prosecutions of his brother.
    For many in Honduras today, migration is, at least in part, an act 
of political protest. A clean break with Hernandez--by, at a bare 
minimum, publicly sanctioning him--would send an unmistakable signal 
that the U.S. approach this time is different. Sanctioning a sitting 
president--a step that has only been used on very few occasions--is not 
something to be done lightly, but it would make clear that the United 
States is standing with the people of Central America and not the 
corrupt keepers of the region's failed status quo. That in turn could 
affect the decisional criteria of potential migrants in Honduras who 
may see in that disruption the beginnings of a better future.
                addressing the root causes of migration
    Addressing the root cause of migration requires disrupting the 
status quo across northern Central America in multiple ways. Such 
disruption is not just, or even primarily, a question of U.S. 
assistance resources and conditionality. Rather it is a question of the 
Biden administration and those that will follow it, consistent with 
demands from the U.S. Congress, being willing to use the United States' 
outsized political influence to openly confront those who stand in the 
way of structural reform and to back and foster champions of change--
inside and outside of government--across northern Central America.
    As part of these efforts, the U.S. Government must aim to alter its 
partner of choice in working on the root causes of migration. It must, 
together with partners from across the international community, also 
focus its efforts in new ways, beginning by placing a premium on 
bolstering good governance. Finally, it must seek to alter--through 
sticks and carrots--the incentives of elites across the region.
    Partners of Choice.--In words and actions, the U.S. Government must 
openly embrace and empower local civil society across the region as its 
partners of choice and treat the governments of the region as limited 
partners almost certain to disappoint over time until they prove 
otherwise. This embrace must be manifest not only in the symbolic, but 
also in the programmatic. Local civil society organizations should be 
seen as a wellspring of ideas on how to positively enhance conditions 
on the ground and promote rootedness among the people of northern 
Central America, as well as implementing partners.
    When it comes to the treatment of its partners, the United States 
must also make clear that those--in civil society and in government--
who stand up in the anti-corruption fight will find protection in the 
United States if, and when, they and their families need it. Recent 
history has seen too many instances of the U.S. Government turning its 
back on these champions. That must never be allowed to be repeated.
    Another, potential disruptive U.S. partner could be large U.S. 
companies with a significant on-the-ground presence across the region. 
These companies, governed by the Foreign Corrupt Practices Act and 
every day implored by their investors, employees, and customers to 
account for the interests of a greater number of stakeholders, have a 
vested interest in improving the business and societal environment in 
northern Central America. Together with reform-minded entrepreneurs who 
wish to disrupt the stranglehold on competition held by a small number 
of actors in these countries, large U.S. companies can help advance 
reforms in the seemingly mundane, yet critical, areas of electronic 
invoicing, mandatory tax withholding, and similar practical reforms.
    Such reforms improve the business environment for U.S. companies, 
disrupt the stasis holding back competition, and help build governing 
institutions across the region. Similarly, large multinational 
companies can be change agents by promoting local philanthropy across 
northern Central America to reduce the reliance on large foreign 
donors.
    Changing Emphasis.--In the past, U.S. assistance to the countries 
of northern Central America has either ignored governance, put it in a 
back seat, or, at best, sought to advance it simultaneous to efforts to 
address prosperity and security. When it comes to expending U.S. 
taxpayer dollars to effectively address root causes of migration the 
lessons of the recent past are clear--every effort should be made to 
put governance first.
    A governance first approach to assistance in northern Central 
America should include:
  <bullet> Renewing or strengthening anti-corruption bodies.--
        Multilateral support missions for anticorruption efforts in 
        Guatemala and Honduras proved so effective in recent years that 
        corrupt elements in each country--with the Trump 
        administration's quiet acquiescence--successfully pushed back 
        and ended those missions. Going forward, every effort should be 
        made to reestablish anticorruption and transparency mechanisms 
        both at a national and regional level.
  <bullet> Deploying Multilateral Support Mechanisms for Tax, Customs, 
        and Procurement Authorities.--Much like international 
        investigators and prosecutors worked side-by-side to build and 
        prosecute cases with Central American counterparts through 
        multilateral-backed anti-corruption mechanisms, international 
        experts should be systematically deployed to work side-by-side 
        with tax, customs, and procurement officials across northern 
        Central America to further root out corruption where it is most 
        corrosive.
  <bullet> Embedding advisors to bolster key ministries.--U.S. civilian 
        experts and/or experienced partner-nation personnel should be 
        embedded in government agencies across northern Central 
        America, including ministries of defense, Ministerios Publicos, 
        and across the judicial sector in a systematic way to bolster 
        professionalism and political will.
  <bullet> Promoting robust Inspector Generals throughout civil 
        administration.--Condition whatever limited U.S. assistance 
        that passes through governments of the countries of northern 
        Central America on a proliferation of IGs inside key ministries 
        with autonomy and investigative capacity to safeguard 
        accountability, respect for the rule of law, and anti-
        corruption.
    As we begin to experience more direct migration from the region's 
rural sectors, stabilizing those regions should be given greater 
priority than has been the case before. Efforts should focus on 
stimulating economic growth by enhancing the finance and market access 
possibilities open to small farmers. Such steps should include:
  <bullet> Expanding access to weather-based crop insurance by 
        encouraging Central American government agencies and the 
        private banking sector to partner to provide large-scale, low-
        premium, weather-based crop insurance to smallholder farmers.
  <bullet> Creating a jointly-financed, public-private commercializing 
        entity, supported by the U.S. International Development Finance 
        Corporation, to provide a phased-out-over-time price guarantee 
        to farmers and cooperatives who make the transition to 
        specialty or hybrid coffee plants, vegetables, or other non-
        traditional crops to empower these farmers to compete against 
        existing cartels.
  <bullet> Developing innovative financing for small farmers in rural 
        areas, by working with partner governments, banking sectors and 
        fintech to create credit guarantees, risk-sharing facilities, 
        mobile banking, and joint credit product design for small and 
        medium farmers.
  <bullet> Prioritizing rural infrastructure investment that benefits 
        all forms of economic development, including roads (not just 
        highways but secondary and tertiary roads), water purification 
        plants, waste management, renewable energy sources like wind 
        and water, and investments in the coffee value chain.
    A change in focus is also necessary when it comes to addressing 
security throughout the region. It is vital that the U.S. Government 
expand measures/definitions of ``insecurity'' to better formulate U.S. 
policy responses and messaging. U.S. policy and policy makers have 
focused too much on homicide rates as the definitive measure of 
insecurity. Other crimes--particularly extortion and gender-based/
domestic violence--need to be more effectively tracked and factored 
into policy responses to insecurity as homicide rates alone do not 
appear to significantly affect perceptions of insecurity.
    In the short-term, the United States must also surge resources and 
capabilities to school- and family-based programs for at-risk youth in 
communities most likely to be tipped toward remaining in their home 
countries. To show results as quickly as possible and thus affect 
public perceptions of hope, a surge of resources should focus on 
communities and programs that have shown results in the past. 
Crucially, to move the needle on migration mitigation, efforts should 
not be concentrated initially in communities where gang activities are 
most prevalent, though long-term progress will very much depend on 
addressing these besieged areas. Instead, efforts should be focused on 
migrant-sending communities where conditions are closest to being safe 
for residents to choose to stay. Past efforts by U.S. Agency for 
International Development (USAID) and the State Department's Bureau of 
International Law Enforcement (INL) to integrate prevention and law 
enforcement programs at the community level fell short and must be 
significantly enhanced. Making ``place-based'' more than a slogan needs 
to be a priority task for each U.S. Ambassador in northern Central 
America and performance-assessment criteria for USAID and INL 
personnel.
    Alter Elite Incentives.--The deep interconnection between the 
countries of northern Central America and the United States provides 
the U.S. Government with considerable leverage when it comes to 
altering behavior in those countries. In short, access--physical, 
financial, and commercial--to the United States is a privilege. It 
should be treated as such and denied to those who actively undermine 
U.S. interests in northern Central America.
    To that end, the U.S. Government should not be shy in using its 
diplomatic and political leverage to condition and coerce political and 
economic elites to implement intrusive and far-reaching reforms that 
both foster space for free-market competition and provide sufficient 
social safety nets to protect the most vulnerable. This means naming 
and shaming individuals who seek to subvert reform efforts; sanctioning 
those who are engaged in corruption, subversion of democratic norms, 
and human rights abuses; and being public about a willingness to seek 
extradition in high-profile corruption cases with sufficient nexus to 
the United States.
    To channel the interest of those members of the private sector who 
seek to be part of the solution in northern Central America and to 
expand the resources available to scale effective programs, the U.S. 
Government should work with governments across the region to create a 
Northern Triangle Public-Private Partnership Enterprise Fund. Such a 
$500M enterprise fund could be funded through the purchase of zero-
interest government bonds by individuals from across the region. The 
Enterprise Fund could then back public-private partnership projects 
carefully designed to promote competition rather than to harden 
existing economic disparities and structures.
                               conclusion
    The challenge of mitigating and managing migration from northern 
Central America and relieving pressure on the U.S.-Mexico border is 
real. But it is not insurmountable.
    An integrated strategy that advances simultaneously at home, at the 
border, and in the region can usher in an era of safe, orderly, and 
humane migration management that advances core U.S. National interests. 
In the region, that requires addressing the reasons people are on the 
move today; creating legal avenues for migration; and intentionally 
disrupting the failed status across the region in such a way to give 
hope and opportunity for those countless Central Americans who simply 
want to exercise the right not have to migrate.

    Chairman Correa. Thank you, Mr. Restrepo. Now, I would like 
to recognize Mr. Ruiz Soto to summarize his statement in 5 
minutes. Welcome, sir.

  STATEMENT OF ARIEL G. RUIZ SOTO, POLICY ANALYSIS, MIGRATION 
                        POLICY INSTITUTE

    Mr. Ruiz Soto. Thank you. Chairman Correa, Ranking Member 
Meijer, and Members of the subcommittee, thank you for the 
opportunity to testify today before you. My name is Ariel Ruiz 
Soto, and I am a policy analyst at the Migration Policy 
Institute, a non-partisan, independent research institution 
focused on practical and effective policy options for managing 
immigration.
    Heightened levels of migrant families and children arriving 
at the U.S.-Mexico border are a symptom of a long-standing 
regional crisis in Central America, and no past U.S. policies, 
whether tougher or more humane, have effectively addressed the 
underlying root causes of migration. Thus, the Biden 
administration's resolve to engage with our regional partners 
to address the causes of irregular migration is encouraging.
    Economic stagnation, persistent violence, insecurity, 
corruption, and a multitude of other factors intersect to 
influence migrants' decisions to leave Central America for the 
United States. While some of the factors are wide-spread across 
El Salvador, Guatemala, and Honduras, others manifest 
differently across and within these countries.
    Meeting the challenges of this crisis requires establishing 
a flexible, resilient, regional immigration management system 
that spans from Canada to Panama. Laying out the foundation for 
this type of system now can reduce the boom-and-bust cycles of 
migration and help manage overlapping crises thousands of miles 
south of the U.S.-Mexico border.
    Addressing the root push factors of migration from Central 
America through investment and development is an essential 
pillar of this regional migration strategy and will be the 
focus of my remarks. But equally as important to this strategy 
is creating temporary labor migration pathways, building 
humanitarian protection, and ensuring transparent and rule-
based border enforcement.
    Notably, the relationship between migration and development 
assistance is complex. Literature suggests that the reductions 
in outward migration take years of consistent and elevated 
assistance that develops broader economic and governance 
structures simultaneously with investment in community 
livelihood opportunities. As such, development is more 
efficient at shaping how migration occurs, promoting legal over 
illegal migration, rather than deterring migration altogether.
    Evidence from previous iterations of the U.S. Strategy on 
Engagement in Central America points to some promising 
initiatives already under way in the region. In the short term, 
tailored community-based assistance and development programs 
that focus on violence prevention and security for at-risk 
populations have the most potential in addressing the root 
causes in the region and reduce irregular migration for some 
groups. Examples include job training and education programs 
for youth in Guatemala's Western Highlands, improving watershed 
management and nutrition in farms across Honduras, and 
community-based crime and violence prevention programs in the 
urban hubs in El Salvador.
    Through the U.S. strategy, we have also learned about on-
going challenges, from program design to political will, in 
Central America. Therefore, as the U.S. Government considers 
increasing assistance in development programs to address the 
root causes of migration, governments, policy makers, and 
program implementers should consider the next 4 vetting 
principles: 1. Assistance programs that provide financial 
support or skill training while simultaneously strengthening 
local opportunities are best positioned to lessen irregular 
migration flows; 2. Building in monitoring and evaluation 
mechanisms in the design of programs promotes sustainability 
and flexibility to focus on the programs that do work; 3. 
Adjusting country-specific withholding requirements by the 
State Department to disburse key types of assistance can 
quickly strengthen continuity and build on program results; and 
finally, 4. Incorporating actors of civil society and private 
sector in the design of these programs fosters a sense of co-
responsibility and raises government accountability.
    Through a combination of smart development assistance and 
investments that support governance measures in the region, the 
United States can help alleviate deep-rooted economic 
stagnation, violence, crime, and promote local resilience to 
climate change in Central America. But even in the best-case 
scenario, development assistance alone is not enough to reduce 
irregular migration. Assistance programs should be considered 
complementary to other pillars of an effective regional 
migration strategy. Laying a foundation that promotes efficient 
and fair protection systems, legal employment pathways, and 
immigration enforcement-based rule of law is the best 
combination to promote safe, legal, and orderly migration. 
Finally, under this regional migration, migration management is 
the responsibility of every country, and as institutional 
capacity improves, the region will be better equipped to 
respond to future changes in migration flows.
    With that, I conclude my testimony and I look forward to 
your questions. Thank you.
    [The prepared statement of Mr. Soto follows:]
                 Prepared Statement Ariel G. Ruiz Soto
                         Thursday, May 6, 2021
    Chairman Correa, Ranking Member Meijer, and Members of the 
subcommittee: Thank you for the opportunity to testify today before the 
U.S. House of Representatives Committee on Homeland Security, 
Subcommittee on Oversight, Management, and Accountability. My name is 
Ariel G. Ruiz Soto, and I am a policy analyst at the Migration Policy 
Institute, a non-partisan, independent research institution focused on 
practical and effective policy options for managing immigration.
    Heightened levels of migrant families and children arriving at the 
U.S.-Mexico border are a symptom of a long-standing regional crisis in 
Central America, and no past U.S. policies--whether tougher or more 
humane--have effectively addressed the underlying root causes of 
migration. Thus, the Biden administration's resolve to engage with our 
regional partners to address these causes of irregular migration in 
Central America is encouraging. Particularly, the recent announcement 
by Vice President Harris to provide $310 million in increased U.S. 
assistance to Guatemala, Honduras, and El Salvador prioritizes much-
needed immediate humanitarian concerns resulting from the devastation 
of 2 hurricane landings in November and the persistent effects of the 
COVID-19 pandemic, both of which exacerbated the already-difficult 
conditions in these countries.\1\
---------------------------------------------------------------------------
    \1\ U.S. Agency for International Development (USAID), ``United 
States Announces Increased Assistance for the People of El Salvador, 
Guatemala, and Honduras,'' updated May 3, 2021.
---------------------------------------------------------------------------
    Meeting the challenges of this crisis requires establishing a 
flexible, resilient, regional migration management system spanning from 
Canada to Panama. And laying the foundation for this type of system now 
can reduce boom-and-bust cycles of migration and help manage 
overlapping crises thousands of miles south of the U.S.-Mexico 
border.\2\
---------------------------------------------------------------------------
    \2\ Andrew Selee and Ariel G. Ruiz Soto, ``The Regional Migration 
Crisis Is in Central America: To Stem the Flow, the United States Needs 
to Invest in the Region,'' Foreign Affairs, April 13, 2021.
---------------------------------------------------------------------------
    Addressing the root push factors of migration from Central America 
through investment and development is an essential pillar of this 
regional migration system and will be the focus on my remarks. Equally 
as important, however, to this regional strategy is creating temporary 
labor migration pathways, rebuilding humanitarian protection systems, 
and ensuring transparent and rule-based border enforcement.\3\
---------------------------------------------------------------------------
    \3\ Andrew Selee and Ariel G. Ruiz Soto, Building a New Regional 
Migration System: Redefining U.S. Cooperation with Mexico and Central 
America (Washington, DC: Migration Policy Institute, November 2020).
---------------------------------------------------------------------------
    Notably, the relationship between migration and development 
assistance is complex. And literature suggests that reductions in 
outward migration take years of consistent and elevated assistance that 
develops broader economic and governance structures simultaneously with 
investment in community livelihood opportunities.\4\ As such, 
development is more efficient at shaping how migration occurs--
promoting legal over illegal migration--rather than deterring migration 
altogether.
---------------------------------------------------------------------------
    \4\ Susan Fratzke and Brian Salant, ``Moving Beyond `Root Causes:' 
The Complicated Relationship between Development and Migration,'' 
(Washington, DC: Migration Policy Institute, January 2018); Michael A. 
Clemens, ``The Emigration Life Cycle: How Development Shapes Emigration 
from Poor Countries,'' (Center for Global Development, Working Paper 
540, August 2020); Richard H. Adams and John Page, ``International 
Migration, Remittances, and Poverty in Developing Countries'' (policy 
research working paper 3179, Poverty Reduction Group, World Bank Group, 
Washington, DC, December 2003); Robert E.B. Lucas, ``Migration and 
Economic Development in Africa: A Review of Evidence,'' Journal of 
African Economies 15, no. 2 (2006): 337-95.
---------------------------------------------------------------------------
    At a moment of great interest in addressing the root causes of 
migration and with the possibility of harmonizing regional investment 
efforts, I underscore the importance of leveraging existing research 
evidence and previous efforts under the U.S. Strategy for Engagement in 
Central America to identify promising assistance and development 
programs that can shape irregular migration in the short term--grounded 
in the idea of instilling hope in the near term. To overcome design and 
implementation challenges, my remarks outline recommendations that can 
increase the success of these programs and contextualize how assistance 
and development fit within a more sustainable regional migration 
system.
             the drivers of migration from central america
    Economic stagnation, persistent violence and insecurity, 
corruption, and a multitude of other factors intersect and influence 
migrants' decision to leave Central America for the United States. 
While some of these factors are wide-spread across El Salvador, 
Guatemala, and Honduras, others manifest differently across and within 
these countries.
    Lack of employment opportunities in the formal market suppress 
economic growth in all 3 countries and propel workers to head 
northward. For instance, each year nearly 362,000 youth (ages 15-29) 
across the 3 countries enter a labor market that creates only 
approximately 127,000 new jobs.\5\ This mismatch between labor supply 
and demand is particularly acute in Guatemala and Honduras, with 
younger populations and faster growth than in El Salvador. Furthermore, 
high poverty levels prevail in the 3 countries with more than half of 
Guatemalans and Hondurans and 40 percent of Salvadorans living in 
poverty, according to projections by the U.N. Economic Commission on 
Latin America and the Caribbean (ECLAC).\6\
---------------------------------------------------------------------------
    \5\ Alicia Barcena, ``Diagnostico, Areas de oportunidad y 
recomendaciones de la CEPAL'' (presentation, Mexico City, May 20, 
2019).
    \6\ El Economista, ``Mayor impacto de la pobreza en El Salvador que 
resto de Centroamerica, Cepal,'' El Economista, July 16, 2020.
---------------------------------------------------------------------------
    The COVID-19 pandemic magnified these regional economic pressures 
in 2020 as GDP contracted by 3 percent in Guatemala and between 8 and 9 
percent in Honduras and El Salvador.\7\ And with large shares of 
workers employed in the informal labor sector, these economic pressures 
have especially affected already-vulnerable workers lacking access to 
benefits.\8\ After falling in early 2020, migrant remittances bounced 
back midyear, providing a lifeline to insulate some of the pandemic's 
economic shock.\9\
---------------------------------------------------------------------------
    \7\ CEPAL, ``America Latina y el Caribe: proyecciones de 
crecimiento, 2020-2021,'' updated December 2020.
    \8\ The average share of workers employed in the informal sector in 
the 2010-2017 period were: 74 percent in Honduras; 65 percent in El 
Salvador; and 63 percent in Guatemala. See Organizacion Internacional 
del Trabajo, Diagnostico sobre economia informal: enfasis en el sector 
comercio de los paises del norte de Centroamerica: El Salvador, 
Honduras y Guatemala (Oficina de la OIT para America Central, Haiti, 
Panama y Republica Dominicana, 2020).
    \9\ Luis Noe-Bustamante, ``Amid COVID-19, remittances to some Latin 
American nations fell sharply in April, then rebounded,'' updated 
August 31, 2020.
---------------------------------------------------------------------------
    In addition, persistent violence fuels real and perceived levels of 
insecurity in Central America. Despite dramatic decreases in the 
homicide rates in El Salvador and Honduras (36 and 43 per 100,000 
inhabitants, respectively), these remained among the highest in the 
world as of 2019.\10\ Violence against women is particularly rampant in 
Honduras where the femicide rate is 6 per 100,000 women, compared to 
the world average of 2 per 100,000 women.\11\ Violence in the forms of 
crime and extortion, moreover, is less visible but ever present in the 
3 countries. Furthermore, annually 1 in 5 residents in the 3 countries 
report being victims of a crime, and 1 in 10 residents in Honduras and 
El Salvador report experiencing extortion every year.\12\
---------------------------------------------------------------------------
    \10\ The World Health Organization (WHO) considers a rate of 10 
homicides per 100,000 inhabitants to be characteristic of endemic 
violence. According to preliminary data compiled by InSight Crime, 
homicide rates continued to fall in 2020: 37.6 per 100,000 residents in 
Honduras; 19.7 per 100,000 in El Salvador; and 15.3 per 100,000 in 
Guatemala. See Peter J. Meyer, ``U.S. Strategy for Engagement in 
Central America: An Overview,'' (Washington, DC: Congressional Research 
Service, February 2021); Selee and Ruiz Soto, Building a New Regional 
Migration System, pg. 6.
    \11\ For femicide rates in Latin America, see Gender Equality 
Observatory for Latin America and the Caribbean, ``Femicide or 
feminicide,'' accessed May 2, 2021; for world average, see The World 
Bank, ``Intentional homicides, female (per 100,000 female),'' accessed 
May 2, 2021.
    \12\ Figures reflect latest Latin American Public Opinion Project 
(LAPOP) survey year publicly available in each country. See, Dinorah 
Azpuru, ``Estudio de la cultura politica de la democracia en Guatemala, 
2019,'' Presentation for LAPOP Americas Barometer, revised August 2019; 
Daniel Montalvo, ``Resultados preliminares 2019: Barometro de las 
Americas en Honduras,'' Presentation for LAPOP Americas Barometer, 
September 2019; Vanderbilt University, ``Analisis preliminar del 
Barometro de las Americas de LAPOP: El Salvador 2018,'' Presentation 
for LAPOP Americas Barometer, updated September 2019.
---------------------------------------------------------------------------
    The nature of violence varies from country to country, but it 
includes violence driven by international organized crime tied to drug 
trafficking (primarily in Honduras and parts of Guatemala), the 
consolidation of powerful gangs (especially in El Salvador and 
Honduras), and political conflict (especially in Honduras and parts of 
Guatemala). Domestic violence is also present within the region and is 
a common push factor among Guatemalan women.
    Corruption is another important driving force behind migration. All 
3 of the Central American countries rate among the most corrupt in the 
world on Transparency International's Corruption Perceptions Index, 
with Honduras and Guatemala ranking in the top 30 least trustworthy 
after expelling their international anti-corruption commissions in 2020 
and 2019, respectively.\13\ High-level corruption undermines people's 
faith in government, encouraging people to migrate. So does more 
mundane corruption among criminals, the police, and low-level public 
officials that makes life difficult on a day-to-day basis and 
contributes to the decisions of many to seek better lives 
elsewhere.\14\ In Guatemala, for example, intention to migrate is 83 
percent higher among victims of corruption than non-victims.\15\
---------------------------------------------------------------------------
    \13\ Transparency International, ``Corruption Perception Index, 
2020,'' accessed May 3, 2021.
    \14\ Selee and Ruiz Soto, ``The Regional Migration Crisis Is in 
Central America.''
    \15\ USAID, ``Irregular Migration,'' updated May 4, 2021.
---------------------------------------------------------------------------
    The 2 storms that devastated Central America in November 2020 were 
harbingers of a final problem driving people away from the region: 
Climate change. Longer periods of drought combined with more frequent 
hurricanes seem to be hitting farmers in the ``Dry Corridor'' 
particularly hard and changing their way of life. Especially in 
Guatemala and Honduras, which have predominantly rural economies, these 
climate changes have augmented food insecurity among farmers. A recent 
study finds that decreases in precipitation are associated with 
increased emigration at department level, magnified further by higher 
homicide rates.\16\
---------------------------------------------------------------------------
    \16\ Sarah Bermeo and David Leblang, ``Honduras Migration: Climate 
Change, Violence, and Assistance,'' (Policy Brief, Center for 
International Development, March 2021).
---------------------------------------------------------------------------
           promising u.s. assistance and development programs
    As aforementioned, for assistance and development efforts to reduce 
migration flows requires years of continuous investment. But by 
targeting violence prevention and food security programs in communities 
with high emigration rates and focusing on at-risk youth, these efforts 
have the potential to reshape illegal migration flows in the short-
term.\17\ Therefore, as the U.S. Government considers increasing 
assistance and development programs to address the root causes of 
migration in the region, identifying and expanding promising programs 
can mediate some migration flows.
---------------------------------------------------------------------------
    \17\ Peter J. Meyer, Honduras: Background and U.S. Relations 
(Washington, DC: Congressional Research Service, April 2020), pg. 19; 
Michael A. Clemens, ``Violence, Development, and Migration Waves: 
Evidence from Central American Child Migrant Apprehensions,'' (Center 
for Global Development, Working Paper 459, July 2017).
---------------------------------------------------------------------------
    Evaluation of U.S. assistance programs is limited, but the latest 
results from fiscal year 2019 broadly demonstrate that community-
oriented programs focused on job creation and workforce development, 
especially among youth, may have promising effects in the short-term. 
That year, USAID programs contributed to the creation of nearly 30,000 
jobs and 17,000 at-risk youth completed work force development 
programs, the majority in Guatemala. Approximately 39,000 youth (ages 
10-29) at risk of violence, primarily in Honduras, trained in social 
and leadership skills through governance-oriented programs. These 
programs are associated with an increase in local public confidence to 
prosecute and convict homicide perpetrators in Guatemala and Honduras, 
though confidence levels fell in El Salvador. Trust in police also 
increased to nearly 30 percent in Guatemala and Honduras but decreased 
in El Salvador.\18\ Other exogenous factors may account for the 
difference in results in El Salvador.
---------------------------------------------------------------------------
    \18\ U.S. Department of State and USAID, ``Progress Report for the 
United States Strategy for Central America's Plan for Monitoring and 
Evaluation,'' accessed May 2, 2021.
---------------------------------------------------------------------------
    Another example of promising programs are Model Police Precincts 
(MPP) sites targeting high-crime geographic areas, which employ a 
community-oriented and problem-solving approach to policing with the 
aim to reduce crime and improve citizen relations with the police. In 
these sites, the number of homicides decreased between fiscal year 2018 
and fiscal year 2019 in El Salvador (29 percent) and Guatemala (8 
percent), though homicides increased slightly (4 percent) in Honduras 
during the same period.\19\ Other research notes that U.S. support for 
expanded application of trauma-informed interventions for communities 
reduced violence indicators.\20\
---------------------------------------------------------------------------
    \19\ Ibid.
    \20\ Jeff Ernst, Kelly Josh, Eric L. Olson, Kristen Sample, and 
Ricardo Zuniga, U.S. Foreign Aid to the Northern Triangle 2014-2019: 
Promoting Success by Learning from the Past, (Washington, DC: Wilson 
Center, Latin American Program, December 2020).
---------------------------------------------------------------------------
    More specifically, existing USAID programs in each country point to 
promising practices. In Guatemala, a Puentes Project supports 25,000 
youth in 25 municipalities in the Western Highlands with high migration 
rates to complete their education and find new or better employment, 
partially by helping private-sector employers expand their businesses 
and hire trained youth. Another program, Feed the Future, seeks to 
improve agricultural incomes, improve resilience, and enhance 
nutritional outcomes for small farmers and their families by providing 
technical assistance and training on best practices and supporting 
diversification of income-generating value chains, while working with 
Government to implement rural development, agricultural, and food 
security policies.\21\
---------------------------------------------------------------------------
    \21\ USAID, ``USAID/Guatemala Country Fact Sheet,'' updated April 
2020.
---------------------------------------------------------------------------
    In Honduras, Empleando Futuros seeks to provide vocational training 
to at least 7,500 at-risk youth in urban neighborhoods, linking them to 
jobs with the expectation that at least half of them obtain a job or 
improve their current employment. A former violence prevention program, 
Proponte Mas, invested in providing family intervention therapy and 
risk-reduction services to a minimum of 2,000 youth and their families 
in Tegucigalpa, San Pedro Sula, Choloma, Tela, and La Ceiba to prevent 
them from engaging in crime. To strengthen communities' resilience to 
economic shocks, a U.S. and Honduran government initiative seeks to 
generate employment in rural areas and improve watershed management and 
nutrition to decrease poverty and undernutrition in western Honduras, 
moving 10,000 families out of extreme poverty and reducing stunting of 
children below age 5 by 20 percent in targeted communities.\22\
---------------------------------------------------------------------------
    \22\ USAID, ``USAID/Honduras Country Fact Sheet,'' updated August 
2018.
---------------------------------------------------------------------------
    Largely focused on prevention, protection, and prosecution, U.S. 
assistance in El Salvador generally targets the urban hubs of San 
Salvador, San Miguel, and Santa Ana which account for most of the 
irregular migration and insecurity in the country.\23\ Aligned with 
government efforts to establish 55 municipal prevention councils, a 
former program aimed to expand municipal-led, community-based crime and 
violence prevention to 114 communities in 20 high-risk municipalities, 
supporting youth centers and municipal prevention centers nation-wide. 
Like capacity training programs in Guatemala and Honduras, Bridges for 
Employment sought to improve technical and soft skills of Salvadoran 
youth to obtain new jobs and promote linkages between private-sector 
needs and training centers to reduce youth vulnerability to gang 
recruitment. Additionally, a Justice Sector Strengthening program aided 
the Supreme Court, Prosecutor's Office, Public Defender's Office, and 
the National Police to improve investigation techniques and inter-
institutional coordination and establish efficient systems and 
procedures to facilitate access to justice.\24\
---------------------------------------------------------------------------
    \23\ USAID, Country Development Cooperation Strategy (CDCS) fiscal 
year 2020-2025, updated on March 24, 2021.
    \24\ USAID, ``USAID/El Salvador Country Fact Sheet,'' updated July 
2018.
---------------------------------------------------------------------------
  challenges to successfully addressing the region's migration factors
    Orienting targeted, community-based assistance and development 
programs to address the root causes of migration is not enough on its 
own to produce short- and long-term results. Under Democratic and 
Republican administrations, the U.S. Strategy for Engagement in Central 
America has confronted significant challenges both in its design and 
implementation that have limited its efficacy and presented an 
incomplete response to migration flows.
    Programs and activities funded under the U.S. strategy often lack 
rigorous monitoring and evaluation mechanisms to understand their 
direct effects on promoting prosperity, enhancing security, and 
improving governance--as well as their subsequent effects on migration 
flows. A 2019 Government Accountability Organization report, for 
instance, documents that ``evaluations were conducted unevenly across 
agencies and sectors'' and the existing evaluation plan ``does not 
include a plan for evaluations of projects conducted by agencies other 
than State and USAID.''\25\ In other instances, project implementers 
did not collect vital data to assess progress toward the objectives. 
Additional transparency and reporting of these indicators, beyond the 
individual program's achievements, is necessary to isolate the impact 
on migration flows, particularly in the short term.
---------------------------------------------------------------------------
    \25\ U.S. Government Accountability Office (GAO), U.S. Assistance 
to Central America: Department of State Should Establish a 
Comprehensive Plan to Assess Progress toward Prosperity, Governance, 
and Security (Washington, DC: GAO, September 2019), pg. 25.
---------------------------------------------------------------------------
    A second key challenge in levering U.S. assistance and development 
to address the root causes of migration is the related and compounding 
effects of political will and resistance to anticorruption and good 
governance reforms, particularly considering the varying levels of 
cooperation across the 3 Central American countries.\26\ This challenge 
proved significantly difficult to overcome under previous efforts to 
couple the U.S. Strategy for Engagement in Central America and the Plan 
of Alliance for Prosperity in Central America, through which the 3 
countries committed to a 5-year investment of $22 billion to create 
incentives for people to remain in their own countries, but lacked 
transparency to evaluate project accomplishments.\27\ In the next phase 
of the U.S. strategy led by the Biden administration, the withdrawal of 
international anti-corruption agencies from Guatemala and Honduras, and 
more recently an overhaul of the Constitutional Court and the Attorney 
General in El Salvador, pose significant doubts of political will to 
enact reforms in the region.
---------------------------------------------------------------------------
    \26\ Ernst et al., U.S. Foreign Aid to the Northern Triangle 2014-
2019.
    \27\ Peter J. Meyer, U.S. Strategy for Engagement in Central 
America: Policy Issues for Congress (Washington, DC: Congressional 
Review Service, November 2019).
---------------------------------------------------------------------------
    One option to bolster political will in the region is to reexamine 
and restructure the layered conditions on foreign aid that these 
Central America governments must meet to disburse assistance under the 
U.S. strategy. For example, the Secretary of State must certify that 
individual governments are addressing 16 different issues of 
Congressional concern prior to releasing 50 percent of assistance 
approved by Congress.\28\ To maintain continuity among programs deemed 
effective in reducing irregular migration, Congress should consider 
lowering requirements to disburse key types of assistance--like 
humanitarian and food security programs--while increasing requirements 
for other types of assistance to leverage political will. Still, 
balancing investment priorities and withholding criteria, which at 
times has included requirements to step-up migration management, in 
practice requires careful consideration to avoid counterproductive 
delays in program implementation as has occurred in previous iterations 
of the U.S. strategy.
---------------------------------------------------------------------------
    \28\ Ibid.
---------------------------------------------------------------------------
    At the same time, the United States Government and international 
organizations can tackle these challenges by incorporating actors from 
civil society and the private sector into the design of these programs 
to foster a sense of co-responsibility and subsequently raise 
government accountability. Following the promising model of community-
level assistance programs that leverage existing resources across 
government institutions, establishing this multi-dimensional approach 
to addressing the factors of migration may lead to more sustainable 
results.
                              conclusions
    Breaking the boom-and-bust cycles of migration flows at the U.S.-
Mexico border and in the region requires a steadfast and long-term 
commitment to changing the conditions propelling migrants to leave 
Central America. Yet, tailored, community-based assistance and 
development programs that focus on violence prevention and food 
security for at-risk populations can reshape irregular migration from 
Central America in the near term. To build successful programs, 
governments, policy makers, and program implementors should consider 
the following recommendations:
    1. Assistance programs that provide financial support or skills 
        training while simultaneously strengthening local opportunities 
        are best positioned to lessen irregular migration flows;
    2. Building in monitoring and evaluation mechanisms in the design 
        of programs promotes sustainability of successful programs and 
        flexibility to amend them if they are not efficient for 
        particular populations;
    3. Adjusting country-specific withholding requirements to disburse 
        key types of assistance quickly can strengthen continuity and 
        build on program results; and
    4. Incorporating actors from civil society and the private sector 
        in the design of programs fosters a sense of co-responsibility 
        and raises government accountability.
    Through a combination of smart development assistance and 
investments that support governance measures in the region, the United 
States can help alleviate deep-rooted economic stagnation, violence, 
crime and promote local resilience to climate change in Central 
America. But even in the best-case scenario, development assistance 
alone is not enough to reduce irregular migration. Rather, assistance 
programs should be considered complementary to the other pillars of an 
effective regional migration system. Laying a foundation that promotes 
efficient and fair asylum systems, legal employment pathways, and 
immigration enforcement based on rule of law is the best combination to 
promote safe, legal, and orderly migration. Under this regional system, 
migration management is the responsibility of every country, and as 
institutional capacity improves, the region will be better equipped to 
respond to changes in migration flows.

    Chairman Correa. I recognize Sheriff Hinkley to summarize 
his statement for 5 minutes. Welcome, sir. Sheriff Hinkley, 
welcome, sir.

 STATEMENT OF STEVEN HINKLEY, SHERIFF, CALHOUN COUNTY, MICHIGAN

    Mr. Hinkley. Thank you. Good afternoon Congressman Meijer 
and Members of the subcommittee. For some, I think it may be 
good morning. I am Sheriff Steve Hinkley with the Calhoun 
County Sheriff's Office located in Marshall, Michigan. I am 
pleased to testify before the subcommittee today to discuss the 
crisis at the Southern Border and how it may impact northern 
communities when unaccompanied children are placed into 
communities for temporary or long-term sheltering.
    On or around April 12 of this year, over 100 unaccompanied 
migrant children arrived at a location called Starr 
Commonwealth, which is in the Sheridan Township in Calhoun 
County. At this time, there was little, if any, information 
communicated with local officials regarding plans for the 
potential impact to the local communities.
    With already razor-thin emergency services existing in many 
communities, including ours, we were extremely concerned on the 
burden that it may cause to local citizens. Eventually Starr 
Commonwealth communicated that the Federal Government would 
handle all aspects of housing needs, and there would be 
absolutely no impact to any local community services.
    Unfortunately, most of that information proved to be 
inaccurate. And a much deeper overhaul assessment must be 
considered and outlined, regarding our local emergency services 
laws and capabilities.
    The Federal Protection Services have been assigned to 
secure the perimeter of the campus with missions including 
unauthorized entry and exit from the 305-acre campus. It was 
really critical to understand the legal role and the authority 
of specific law enforcement agencies and it is impossible that 
the Federal protection agencies can enforce State or local 
laws. Simply said, the property of Starr Commonwealth is 
propriety. It is not Federal property and it does not fall 
under any Federal jurisdiction. So, anything that happens on 
that campus to children, staff, or any individual occupying the 
campus, falls under the local jurisdiction of the sheriff or 
the State police.
    To say that the local law services may not be affected 
would be essentially impossible. Shortly after the arrival of 
the first unaccompanied migrant children to the campus, a 
meeting was had with the authorities and some clear outlines 
were established. The Federal protection would be protecting 
the perimeter of the facility only, and they would not be 
interacting or policing any of the unaccompanied children in 
the facility in case there was a crisis or an emergency.
    All private security at the facility does not have law 
enforcement authority. It was made clear that they would not be 
interacting or assisting during a crisis, that they would 
monitor and they would call 9-1-1 local law enforcement. Then 
Starr Commonwealth indicated they did not have any plans for 
any type of restraint or de-escalation team in the event there 
was an emergency crisis with the children. Again, they would 
call 9-1-1 and emergency services would respond.
    To summarize, it is not my intent in any way, shape, or 
form to take away from the humanitarian message or the role in 
this case, but it is to outline the importance of 
collaboration, communication, and most importantly, funding to 
local jurisdictions that are affected in these cases to build 
the success of all.
    Any type of Federal actions or decisions in these regards 
will have an enormous impact on emergency services and place 
partial, if not all, of the safety and security 
responsibilities in the lap of local authorities.
    I thank you and I am humbled to sit here and have this 
opportunity to testify about my experience. I am happy to 
answer any questions. Thank you.
    [The prepared statement of Mr. Hinkley follows:]
                  Prepared Statement of Steven Hinkley
              local perspectives on dhs immigration crisis
    Good afternoon Congressman Meijer and Members of the subcommittee, 
I am Sheriff Steve Hinkley with the Calhoun County Sheriff's Office 
located in Marshall, Michigan. I am pleased to testify before this 
subcommittee today to discuss the crisis at the Southern Border and how 
it may impact northern communities when unaccompanied children are 
placed into communities for temporary or long-term sheltering.
    On or around April 12, 2021, over 100 unaccompanied migrant 
children arrived at Starr Commonwealth Campus in the Township of 
Sheridan, Calhoun County, Michigan. At that time, there was little, if 
any, information communicated with local officials regarding plans or 
the potential economic impact to our local communities. With razor-thin 
emergency services already existing in many communities, including 
ours, we were extremely concerned on the burden it may cause to our 
local citizens. Eventually, Starr Commonwealth communicated that the 
Federal Government would handle all aspects of the housing, all needs, 
and there would be no impact on any local community services. 
Unfortunately, most of that information is not accurate. A much deeper 
overall assessment must be considered and outlined regarding our local 
emergency services, laws, and capabilities.
    Federal protective services have been assigned to secure the 
perimeter of the campus with missions including unauthorized entry and 
exit from the 305-acre campus. It is critical to understand the legal 
role and authority of specific law enforcement agencies and it is 
impossible that Federal protection agencies can enforce State and local 
laws. Simply said, the property at Starr Commonwealth is proprietary, 
not Federal property and does not fall under specific Federal 
jurisdiction. Anything that happens on the campus to children, staff, 
or any individual occupying the campus, falls under the local 
jurisdiction of the sheriff and State police. To say that local 
services may not be affected, is impossible.
    Shortly after the arrival of the first unaccompanied migrant 
children to the campus, a meeting was established with authorities and 
some clear outlines were established.
  <bullet> The Federal protection would be protecting the perimeter of 
        the facility only and they would not be interacting or policing 
        any of the unaccompanied children in the facility.
  <bullet> All private security at the facility does not have law 
        enforcement authority and it was made clear that they would not 
        be interacting with any of the children or staff at the 
        facility. They would only monitor and call 9-1-1 if there was 
        an issue.
  <bullet> Starr Commonwealth indicated that they did not have any 
        plans for any type of a restraint or de-escalation team in the 
        event there was an issue with any of the children and they 
        again would call 9-1-1 for any type of law enforcement or 
        emergency services.
    To summarize, it is not my intent to take away from the 
humanitarian message or role, but to outline the importance for 
collaboration, communication, and most importantly funding. Any type of 
Federal actions or decisions in these regards will have an enormous 
impact on emergency services and place partial, if not all, safety and 
security responsibilities in the lap of local authorities.
    I thank you for the opportunity today to testify about my 
experience and I am happy to answer any questions you may have.

    Chairman Correa. I am glad you accepted our opportunity to 
be here today, and we will have some questions for you in a 
minute. I thank all the witnesses today for their testimony. I 
will remind the subcommittee Members that each of us will have 
5 minutes to question the panel. Now, I will recognize myself 
for 5 minutes of questions.
    I am going to start out by asking Mr. Ruiz Soto, during 
your testimony, you talked about some good investments have 
been made in Central America and you talked about some bad 
investments that maybe empowered corrupt individuals in Central 
America. Can you elaborate where you see some bad investments 
that maybe as a Nation that we made and how we can fix that 
moving forward? I don't want to see American tax dollars end up 
in a Swiss bank account somewhere.
    Mr. Ruiz Soto. Thank you, Congressman. So, to be clear, one 
of the key things that we have found is that throughout the 
U.S. strategy for engagement in Central America, more is needed 
to be able to provide clear guidance of what is working. What 
we have so far pointed out--as I mentioned in my testimony, 
that the most effective programs are doing the focus on 
smaller, local level practices. The ones that are less 
effective, at least have less results so far, I should say, are 
those that focus on the broader sort of issues that go more or 
less to try to create jobs and without a plan on how to 
evaluate them.
    There is a lot to be said about training programs. I think 
the best evidence that we found so far is for youth. Especially 
for youth in municipalities in high migration areas. In other 
parts of the countries, for example, in Honduras, less is the 
case and there is less evidence of programs that focus, for 
example, on tying job opportunities with some other key sectors 
and private-sector components.
    That doesn't mean that these are not reliable and that we 
should stop them, but what I am saying here is that we should 
begin to evaluate them better and be able to be more flexible 
from one program to another.
    The key component here that is also important to mention is 
that these programs are most effective when they have support 
of the local governments as well. What we saw in El Salvador, 
for example, is that the smaller investments, even in security 
measures, were most effective at reducing violence--not just 
homicides, but violence--when they had the buy-in from the 
local governments.
    Chairman Correa. Are you saying, Mr. Ruiz, that we have got 
to have our local folks from the U.S. Embassy, folks that 
oversee this operation, working with the locals, with the local 
churches, as opposed to just dropping it in the local Federal 
Government and hope to God that it goes to the right place?
    Mr. Ruiz Soto. You are right that the programs are most 
effective when they have the local cooperation and coordination 
with international partners.
    Chairman Correa. Thank you very much. I am running out of 
time here. So, very quickly, I want to ask Ms. O'Neil and Mr. 
Restrepo. We have had spikes in the past, 2014, 2016, 2018, 
2019. We have had a terrible situation in Central America about 
50, 60 years. Can you make a correlation? Is there a 
correlation we can draw between these spikes in instability, 
natural disasters in Central America?
    Ms. O'Neil. I will start and then Dan, I will turn to you. 
Yes, when there are immediate causes, acute causes, you do tend 
to see a spike. So, we have seen both from the hurricanes, as 
well as I would say, COVID-19. You know, the economies are 
being destroyed.
    The one thing I did want to make sure that we have on the 
table too is, yes, it is Central Americans coming in at some of 
the peaks that we have seen over the last decade. But it is, 
again, Mexicans who are starting to come. Particularly, over 
the last 9 to 12 months we have seen Mexicans----
    Chairman Correa. Why is that?
    Ms. O'Neil [continuing]. Starting to come in.
    Chairman Correa. Why is that?
    Ms. O'Neil. It is many of these same reasons. There is 
increasing violence in that nation. It is the lack of economic 
opportunity. It is COVID-19 destroying big parts of the economy 
there. It is the pull of community ties, family ties, and 
economic opportunity here in the United States. We are a 
country that we share a very long border with.
    Chairman Correa. Thank you. Mr. Restrepo.
    Mr. Restrepo. Yes, so, it comes from in part, a response to 
detonating events, right? So, it is the storms that hit the 
region in late 2020. It is COVID. But there is also steady 
peak. It is also from--we have, and Ariel got to this--you need 
a systemic--people are on the move for a bunch of different 
reasons. But we don't actually have a system that accommodates 
any of the reasons, right? We have a kind-of one place, one 
door, one place where if you are on the move because you need 
protection, you can't find it close to home. Or if you are 
looking for family reunification, there is no line to get into. 
There is no means of doing that legally.
    So, you are forcing everybody to come to the U.S. border. 
We have been doing this for decades--this is not new--to claim 
asylum. That is why part of this response is addressing these 
acute causes, these root causes, but also setting up mechanisms 
so people have optionality. So, you can order this migration. 
This isn't that many people on the move if it were orderly. If 
it were orderly, it can be safe. It can be humane. It can be 
lawful. But right now, we are kind-of funneling everybody to 
that pressure point that is the U.S.-Mexico border in a way 
that simply doesn't make sense given the number of reasons 
people are on the move and have been over the last 30 years, 
really.
    Chairman Correa. Thank you very much. I'm out of time. So, 
let me now recognize our Ranking Member, Mr. Meijer, for 5 
minutes of questions. Welcome, sir.
    Mr. Meijer. Thank you, Mr. Chairman. I want to build on 
those remarks by continuing with Mr. Restrepo, a quick 
question. How have we seen the shifts over time between 
individuals crossing the border with an eye toward employment 
and then sending remittances back to a home country versus 
full-on relocation?
    Mr. Restrepo. So, we have seen a couple of different things 
happen over the course of the last couple of decades. No. 1, is 
that we have generally seen, until this past year, a decrease 
in Mexican migration. Mexican migration had been largely single 
adults coming to work seeking employment in the United States. 
We have also seen them be replaced by initially single adult 
Central Americans on the move for a very similar set of 
reasons.
    Over the course of the last roughly decade--a little bit 
less--you have seen a real increase first in unaccompanied 
minors. So, folks that are 17 and younger coming to the United 
States and presenting for asylum purposes, and family units. 
So, I think that goes to this issue that there are a bunch of--
right now, you are seeing basically all of the above for the 
reasons discussed. The storms, COVID, family reunification, 
protection needs. So, you have this kind-of diverse group of 
folks who are on the move or who have this--who are being 
impelled to move for a different set of reasons, but really no 
system that brings any order to that, right? That channels it 
to places. Quite frankly, having places to channel folks 
actually also enhances your enforcement ability, right? Because 
if you are enforcing, you want to be sending people somewhere, 
rather than just saying you just can't come, right? Because as 
we have seen over the course of, again, 30 years, folks are 
going to come. The question is how do you most cost-
effectively, most humanly, and most effectively order those 
types of movement?
    Mr. Meijer. Thank you, Mr. Restrepo. Again, I want to thank 
the Chairman for allowing us to also be, you know, drawing the 
contrast between not only what may seem remote and that is what 
is occurring in Mexico in their northern tribal countries, but 
then also how we are experiencing those kind of distant 
patterns, those distant trends, those distant issues, and how 
that is making an impact here at home as well.
    So, I want to shift to Sheriff Hinkley. Sheriff, in your 
testimony, you outlined a few challenges that you have been 
confronting within Michigan as a result of housing immigrant 
children at Starr Commonwealth. So, this administration has 
opened several emergency intake sites similar to Starr 
Commonwealth to help HHS deal with the influx of unaccompanied 
children coming to the Southern Border this year.
    Could you please talk a little more about these challenges 
and how local law enforcement, including your sheriff's 
department, has had to adapt in order to meet them?
    Mr. Hinkley. Absolutely. So, this, I mean, this is an 
interesting situation when we have children in our jurisdiction 
that our State law has already provided significant protection 
for children in our communities. So, when the children are in 
our jurisdiction and the Federal authorities--and let me start 
this off by saying this has been a fantastic relationship. We 
have had great communication. But this is surrounding funding. 
When it comes back to--we were trying to make sure that all of 
our State law obligations were met with the children that are 
on the campus there, and so, when there is a crisis or an 
emergency, local law enforcement has to be involved.
    I would like to say initially they had asked for a number 
of--our community services officers to be on the campus to be 
plugged in. Then we eventually found out that there was 
absolutely no funding to make that happen. Our intent was to 
make sure that all of the State law guidelines were being met 
with the children so, we both had the same--everyone had the 
same goal here for success. We just didn't have the funding to 
make that happen. There were so many other things, including 
law enforcement and mental health and our sexual assault 
services investigations in the county that is going to be 
affected by this impact and there is just no funding to offset 
it.
    Mr. Meijer. Then, Sheriff, could you speak to just your 
impressions, you know, are you witnessing--I know you have 
spoken positively at least of kind-of the interactions of 
communication. Were you under the impression that these were 
kind-of well-developed plans or something that was put together 
a little bit more in haste?
    Mr. Hinkley. Yes, absolutely. It was very, very unexpected 
and if we had to do this over again, I would have rather had 
this conversation a month out and we were able to establish 
those plans and how the Federal laws interact with State laws 
so everything was taken care of. It just--it just didn't 
happen. It was very unexpected and when you are in the middle 
of the budget cycle for your own department, and you are asked 
to do more services and you just don't have the funding to do 
that, it was--it is a crisis here at our agency, also, trying 
to make sure that these are all met.
    Mr. Meijer. Thank you, Sheriff, and thank you, Mr. 
Chairman. I look forward to continuing working on this and I 
yield back.
    Chairman Correa. Thank you, Mr. Meijer. Now, I recognize 
Ms. Titus for 5 minutes of questions.
    Ms. Titus. Thank you, Mr. Chairman, and thank you for 
having this hearing. I have a number of people from this area. 
In my district, many of them are TPS holders, especially from 
El Salvador and Honduras. I want to ask about the impacts of 
not keeping that TPS protection.
    But first, let me go to the problem of climate change. It 
has been mentioned by almost all the speakers and we have 
certainly seen how it exacerbates the problems of poverty in 
this Northern Triangle. I think the statistics from the U.N. 
World Food Program shows that food insecurity just in 2020 
increased from 1.6 to almost double to 3.0 million people. So, 
I wonder if Ms. O'Neil would just describe briefly what the 
immediate need for food is and what we can do to set up 
sustainable agriculture or infrastructure to not just give you 
a fish but teach you how to fish. Can we ensure that with the 
corruption in government that this will get to the people who 
need it?
    Ms. O'Neil. Great, thank you, Congresswoman. Yes, climate 
change has hit this part of the world incredibly hard and many 
of these countries have parts of their countries where there 
has been drought for 6, 7, or more years. So, it has been 
incredibly difficult and leaving millions food insecure with 
all kinds of deleterious effects of the like.
    What can we do? I mean, especially given the hurricanes, 
given COVID, given, you know, many of these economies have shut 
down. There is a direct need for food that the United States 
can fill in weeks, months, today. I think that is important. 
So, there is the short-term acute response that I think the 
United States should fill.
    There is a longer-term response, and I started mentioning 
that. But I do think there is--these--for farmers to stay on 
their land, and keep their land, and not lose their land when 
their crops fail, they need to change the kinds of things they 
grow. They need to grow them in different ways and they need to 
find new markets and, hopefully, cut out middlemen and others 
so they can earn more for each type of produce that they grow 
or each crop that they had.
    So, that can involve things like setting up irrigation and 
drainage, managing water systems differently, as Ariel had 
mentioned. It can mean helping farmers switch to other crops 
that they are not familiar with. So, some technical training 
and the like to get to that point.
    Then it can be, you know, how can you help some of these 
communities come together and do, you know, fair trade coffee 
where they get paid much more per pound than they would today 
for other kinds. So, there is a lot of things there that is the 
teaching to fish. But it is really, these are farmers. They 
know how to farm. But helping them get to a different set of 
markets and a different set of crops that will give them much 
more to support their families with. Making sure that they get 
to keep their land because sometimes what happens when your 
crop fails, you lose your land because of your debts. Then you 
are, you know, you are out of that whole game. You are looking 
for somewhere to go, which could be a city in Central America 
or it could be the United States.
    Ms. Titus. Thank you very much. Mr. Restrepo, you mentioned 
that ending DACA and TPS would have put additional strains on 
existing governments. I wonder if you and Mr. Ruiz Soto would 
comment on that. The House has passed the Promise Act and 
extended provisions for TPS holders. Many have been here for 
generations.
    Mr. Restrepo. Correct.
    Ms. Titus. That is a burden that just sending them back or 
not giving them that security puts on home governments, which 
adds to that push factor for other immigration. No longer would 
they have the remittances that are occurring now. But also, 
they would have more people to serve and fewer resources.
    Mr. Restrepo. That is precisely right, Congresswoman. There 
is several kinds of layers of effect, if you will, in terms of 
what--a termination of TPS. For these communities, who as you 
rightly point out, have now been in the United States for 
decades, who are very much a part of our societies and part of 
our communities. So, you disrupt that remittance flow, you 
would bring in--it is actually you have an interesting labor 
market effect also in the countries themselves in that you 
would be sending back more skilled workers. Folks who have 
acquired skills here in the United States who would displace 
lessor-skilled workers in these countries, making them more 
prone to migrate.
    So, it is kind-of you have a knock-on--kind-of a bunch of 
negative knock-on effects. You would cut a remittance flow that 
has allowed people to stay in place. You would be displacing a 
particular kind of migration-vulnerable segment of the 
population with these kind of displaced workers back into these 
countries. So, it would be a lose-lose-lose. We would lose here 
in the United States where these folks are already members of 
our community. We would disrupt part of the economies in these 
countries that allows people to stay and live out their dreams 
in their home communities in the region. You would displace a 
segment of a work force that is already under enormous stress 
and make them more likely to migrate. So, the termination of 
temporary protective status, again, is kind-of a lose-lose-lose 
proposition.
    Ms. Titus. Thank you. That was great. That is an argument 
we need to make more effectively.
    Chairman Correa. Thank you, Ms. Titus. Now, I would like to 
recognize Mr. Bishop from North Carolina for 5 minutes of 
questions. Welcome, sir.
    Mr. Bishop. Thank you, Mr. Chairman. One thing Mr. 
Restrepo, I thought I heard your testimony. You said, I think, 
that the powers that be in Northern Triangle countries treat 
people as export commodities. Is that what I understood?
    Mr. Restrepo. That is correct, Congressman.
    Mr. Bishop. If that is the case, isn't it important that 
American policies be decidedly organized to deter, you know, 
not to enable that practice?
    Mr. Restrepo. I think U.S. policy--and that was exactly my 
point--should be to disrupt that practice. What do I mean by 
that? The U.S. policy should be on behalf of free market 
competition in these economies. These economies serve a very 
small number of people. There is an enormous amount of economic 
concentration. Those folks just build higher walls and hire 
more private security to protect them from their own 
population. There is more private security in Guatemala today 
than there is public security. That should tell us a lot about 
that Guatemala's not really working as a society. That those 
folks are the problem. So, we should be--United States should 
be actively promoting market economics in these countries to 
give folks--Shannon was talking about it earlier--to give these 
farmers an opportunity to get a fair price for their goods. The 
farmer who gets a fair price is much likelier to stay in their 
country than a farmer who is working at barely subsistence 
levels for kind of big coffee in this case. Those folks can 
just kind-of be moved out of the country, less social cost, and 
they send back remittances.
    Mr. Bishop. I get the picture. Let me follow up. So, isn't 
it--doesn't it seem sort of implausible--I know you were 
talking about--or somebody was making reference to a $4 billion 
spending plan the President is talking about. Doesn't it seem 
somewhat implausible that these societies and the way they have 
been set up, that you have this exploitation that you describe, 
doesn't it seem implausible that the United States about 
sending in more money to these--I understand you don't want to 
send them into the hands of the governments that you regard as 
corrupt. That is not going to give rise to a system that 
suddenly becomes successful, is it?
    Mr. Restrepo. It certainly can. It certainly can 
contribute. Again, it is about empowering folks. It is not that 
the United States is going to come in and do this. There are 
plenty of folks in civil society, in the private sector, in 
these Central American countries who want a better system. Who 
are, kind-of demanding a better system, but, again, the system 
is rigged against them. I think if the United States comes in 
effectively be that $4 billion or obviously, the Congress gets 
to decide that number, but make sure you target it in the right 
way to disrupt these--again it is a small number of folks who 
are--who have rigged this system. If the United States comes in 
on behalf of everyone else in Central America, I think 
absolutely the United States can make a positive difference and 
that can affect migration positively both for the region and 
for ourselves.
    Mr. Bishop. So, it just seems to me more plausible that 
governments are formed, societies that become successful, do so 
by their own internal decisions. I am skeptical that you are 
going to get foreign countries to solve these problems for 
these countries.
    But let me talk about what is happening in the United 
States for a moment and let me ask Sheriff Hinkley. The impacts 
you were describing were on a private campus. Are these 
unaccompanied minors who are being cared for? Is that who you 
are referring to, the hundred that arrived in Michigan?
    Mr. Hinkley. Yes, sir.
    Mr. Bishop. I understand also you have family units with 
small children coming in and they are being distributed 
throughout the United States and then some are waiting. Are you 
aware of personally, or have you heard about any of that in 
your community?
    Mr. Hinkley. I have not. Only children, sir.
    Mr. Bishop. You were illustrating one point, one impact, 
local police resources and you mentioned mental health 
services. I assume there are going to be--at some point these 
children are going to move off this private campus, right?
    Mr. Hinkley. That is my understanding that they are going 
to be moved to private families somewhere in the United States.
    Mr. Bishop. Presumably, they will need to be educated. They 
will need health care. Do you have any information about the 
capacity of the recipient families or recipient persons to meet 
all of their own economic needs as well as for these 
unaccompanied minors?
    Mr. Hinkley. None. No, sir.
    Mr. Bishop. You are describing that their resources are 
constrained in the United States for public services of all 
these kinds, wouldn't you say?
    Mr. Hinkley. Yes, sir, absolutely.
    Mr. Bishop. So, if we are sending $4 billion to try to 
change what hasn't been done by these nations abroad, do you 
believe this $4 billion could be useful in the United States to 
try to ameliorate the problems here?
    Mr. Hinkley. I certainly do, sir.
    Mr. Bishop. My time has expired. Thank you.
    Chairman Correa. Thank you, Mr. Bishop. Now, I would like 
to recognize Mr. Torres of New York for 5 minutes of questions. 
Welcome, sir.
    Mr. Torres. Thank you, Mr. Chair. You know, it is important 
to note that migration is an episodic event. It is not unique 
to the Biden administration. There had been waves of migration 
in 2014 during the Obama administration, 2019 during the Trump 
administration, and now, in 2021. So, President Biden is hardly 
the only President to manage a wave of migration. He is the 
only President, however, to do so during an infectious disease 
outbreak, which has put unprecedented constraints on the 
shelter capacity of the Federal Government, particularly, 
Health and Human Services. So, I would hope instead of 
demagoguing the issue of immigration and scapegoating the 
President, as too many Republicans have done, we ought to 
commit ourselves to seriously grappling with the root causes of 
episodic migration.
    We should ask ourselves why are these migrants fleeing 
their home country? Why are they taking the treacherous journey 
from their home country to the U.S.-Mexico border? My first 
question is for the Center for American Progress. Is it fair to 
say that migrants flee their home country because of 
instability at home?
    Mr. Restrepo. Absolutely, among other reasons, absolutely.
    Mr. Torres. What did the Trump administration do to address 
the instability driving the migration?
    Mr. Restrepo. Very little. One might argue they took steps 
that undermined stability in those countries. For example, 
turning a blind eye to Juan Orlando Hernandez in Honduras, 
stealing the Presidential election several years ago led to an 
immediate rise in migration thereafter. And left Honduras in 
the hands of somebody who has now been named and identified as 
an unindicted co-conspirator in successful drug prosecutions in 
the United States Federal District Court against his brother 
and other Honduran kingpins.
    Mr. Torres. By contrast, what does the Biden administration 
profess to do to address the instability driving immigration?
    Mr. Restrepo. A number of things. To address the acute 
causes and more humanitarian assistance right now to deal with 
food insecurity and to help put people back to work rebuilding 
their community. Then going after corruption. So, anti-
corruption issues, efforts, transparency efforts, addressing 
gender-based violence, addressing the insecurities that affect 
too many people in these countries, in many of the ways that 
myself and my colleagues here on the panel have been talking 
about.
    Mr. Torres. I have heard several Republicans raise 
questions about the efficacy of humanitarian assistance, but 
humanitarian assistance has a successful track record in 
history. I mean, certainly, the Marshall Plan was a success. Is 
that a fair characterization?
    Mr. Restrepo. Absolutely.
    Mr. Torres. Is it fair to say that migrants who are risking 
their lives on the treacherous journey are doing so because of 
their inability to apply for asylum from within their home 
countries?
    Mr. Restrepo. Certainly, there aren't lines to get in. 
There aren't mechanisms for protection close enough to home or 
for the other reasons the people are on the move.
    Mr. Torres. Right, so, you have the Central American Minors 
Program. That program was suspended by the Trump 
administration, correct?
    Mr. Restrepo. Correct. I think my co-panelist, Ariel is 
more expert in the efforts to get it back up and running.
    Mr. Torres. Is it--then I will address the question to your 
co-panelist. Is it fair to say that the Trump administration's 
suspension of the Central American Minors Program is one 
example of how the Trump administration made the situation at 
the border worse for the Biden administration?
    Mr. Ruiz Soto. Well, it certainly really did cause a 
disruption for what we could do. But the program itself also 
from the beginning had a small number of recipients. So, in the 
future, I think one of the things that we have been looking at 
here is to try to increase how it is implemented so that it is 
able to reach a higher population.
    Mr. Torres. How do we bolster the implementation of the 
program, the participation in the program?
    Mr. Ruiz Soto. Just very briefly, 2 quick things that can 
be done; No. 1 is how it is defined of who is able to petition 
for children. Right now, at least in the past iteration of it, 
it was focusing on people who could prove they were with lawful 
presence in the United States. That included TPS holders. But 
we do know that there is a significant number of other families 
that wouldn't be able to petition for their children. No. 2, it 
is because the CAM allocations are actually directed to the 
refugee resettlement numbers and so, therefore, that also 
potentially should be increased to actually increase the 
capacity of people that are coming through.
    Mr. Torres. Do you think the American people would want 
their country to close the borders to unaccompanied minors? Do 
you think most Americans would wish that outcome on other 
people's children?
    Mr. Ruiz Soto. I don't think so. I think there is public 
opinion that has said that there should be a better way to 
provide humanitarian processing. It is really trying to see, as 
I think Dan mentioned earlier, how can we make the process 
better so that people can at the border, but also in their 
countries, have better access to protection assistance.
    Mr. Torres. Most of the migrants who are coming here have 
family here in the United States, correct?
    Mr. Ruiz Soto. There is a large segment of them that do, 
especially from El Salvador and from Guatemala. Honduras is 
slightly a different case, but certainly from El Salvador.
    Mr. Torres. So, we should strive toward humane 
reunification between these migrants and their families here.
    Mr. Ruiz Soto. That is one example and one key, I guess, 
area that we have been looking at at MPI and we want to 
continue to do that further. So, yes, it definitely should be 
one of the keys of the components in relation to the regional 
immigration strategy that I outlined earlier.
    Mr. Torres. I cannot see the clock, but I am sure my time 
has expired. So, thank you, Mr. Chair.
    Chairman Correa. Thank you, Mr. Torres. Now, I would like 
to call on Ms. Harshbarger for 5 minutes of questions. Welcome, 
ma'am.
    Ms. Harshbarger Thank you, Mr. Chairman and Ranking Member 
Meijer. You know, we all have a heart for these children. I 
mean, nobody wants anybody to go hungry and nobody wants 
anybody to suffer persecution. But we are a country of laws. As 
Representative Meijer said, we were at the border. We saw how 
many unaccompanied minors are there. Those children don't want 
to be there.
    It is like me sending my son, sending my grandchildren 
across the border by themselves. It is terrible. There are so 
many factors that brought them here, but what about those 
people trying to get in here legally? There are push and pull 
factors for them as well.
    I guess, I have some questions. You know, the Biden 
administration canceled the Asylum Cooperative Agreements with 
Guatemala, Honduras, and El Salvador. This is open to anyone 
who wants to answer. Were the agreements effective in helping 
these countries build up their asylum and refugee programs?
    Mr. Restrepo. I will take a shot at that Congresswoman. 
They were not effective. So, they were neither effective in 
kind-of building out refugee and asylum programs in these 
countries, which is actually a very important element of 
creating a migration system that meets the needs of folks as 
close to home as possible. So, the idea of doing that is an 
important one.
    The ACAs were not achieving that. Nor were they 
particularly effective for the purpose that they were laid out. 
It was to redirect migrants. Only a couple hundred people were 
ever moved or repatriated under the ACAs. So, they weren't 
effective in creating more asylum and refugee capacity in the 
region. Nor were they particularly effective for the use, the 
limited use that the Trump administration put it to, of 
redirecting people who were arriving at the U.S.-Mexico border.
    Mr. Ruiz Soto. If I could--could I just a quick comment?
    Ms. Harshbarger Go ahead.
    Mr. Ruiz Soto. It is just to point out that, again, one of 
the key components of the ACA is that I do think it should be 
followed up and it is part of our regional immigration system 
plan that I suggested is to try to increase the capacity of 
specific countries. But I think it does require a specific 
focus on which capacities are easiest to upgrade, for example. 
We know very little about Honduras and El Salvador. Guatemala 
seemed to be having a particular opportunity here. I think with 
significant efforts and with, again, the buy-in from the 
political governments there, we could begin to think of other 
ways that we can implement protection mechanisms. Because I 
think as others have mentioned in this panel, it is important 
for people to have access to protection closer to home in a way 
that makes it easier for them to be safe.
    Ms. Harshbarger OK. Ms. O'Neil, do you know how much aid 
goes to different efforts like the agricultural program's 
approach to, I guess, reduce domestic violence or curb 
corruption and Government-directed trafficking?
    Ms. O'Neil. Well, the different programs have changed over 
time. So, as we think about this particular time, and most of 
them, many of them were frozen or paused in the last couple of 
years. So, there has been very little that has gone to those 
programs.
    But when you look back at the Alliance for Prosperity, it 
was roughly $750 million from, I guess, 2016 to 2018. So, there 
were many different areas, but those were some of the areas 
that received, you know, probably in tens of millions of 
dollars depending on which ones. You know, what we do know from 
some of the evaluations that are out there and as my colleague, 
Ariel, was saying, we need to make sure evaluations are put 
into these programs so we see what works. What we do know is 
often place-based, where you focus on one particular place and 
you try to deal with some of the many causes that lead to an 
unstable situation that has people leave, that is important. 
So, some of this layering on. It is also important to focus on 
places where you do see high migration, right? Those are the 
places that need more support.
    Ms. Harshbarger Well, we absolutely need measures in place 
for that. I do have one last question for Mr. Hinkley. Were you 
told that those unaccompanied minors were coming to your area 
before they got there?
    Mr. Hinkley. No, ma'am.
    Ms. Harshbarger You weren't.
    Mr. Hinkley. No, ma'am.
    Ms. Harshbarger You had no way--OK, no way of knowing or--
and I have heard this over and over at different places that 
they received these children, didn't know they were going to 
come. We have colleagues in Texas that experienced the same 
thing. You know, just like the Border Patrol, 50 percent of 
their operating budget is being used to help with snacks, help 
with doctors, help with formula. We need to talk together in a 
bipartisan way and come up with a solution. That is just the 
bottom line. I yield back, sir.
    Chairman Correa. Thank you, Ms. Harshbarger. Any other 
Members that we haven't called on that I am not seeing here? 
That being the case, what I would like to do, Mr. Meijer, is go 
to a second round of questions, if I may. I would like to go 
back to all questions for everybody.
    I understand President Biden has restarted the Central 
American Minors Program that allows children to apply for 
asylum in their home country. This is important because all of 
us have seen those children at the border. Sheriff Hinkley, you 
dealt with children, unaccompanied minors. There has got to be 
a better way to do this. I think the way to do it is to start 
by being able to keep those children at home, safe. Be able to 
apply for asylum at home. Those young ladies that I saw that 
were sexually attacked on their trip. The 3- and 5-year-old 
girls that were thrown over the border wall inhumanely looking 
for certain death.
    This is just not a good way to do business. Question to all 
of you. How do we get this program up and running as quickly as 
possible and how do we keep those kids safe in their home 
country? Ms. O'Neil.
    Ms. O'Neil. I mean, a lot of the things that we have been 
addressing here. Trying to address the acute and the long-term 
factors in the long run will make those communities safer so 
fewer of these kids need to apply for asylum. So, that is one 
side, right?
    The other side is can we make it possible? I mean, they are 
applying for asylum. They are leaving their communities because 
they are dangerous. So, yes, we can set up places in those 
countries in other neighborhoods or in other places within a 
particular country. We can set up asylum places where they can 
go in a neighboring country. But we can also, and we need to 
here in the United States, fix our own asylum system so that 
when they do come to the border, they are not being thrown over 
the border because the line is a million people long, but 
because there is actually an efficient way at our border for 
them to come and see a judge to have their case adjudicated and 
to go through a process.
    So, that will take, you know, the resources of the United 
States. But it is our asylum system that----
    Chairman Correa. Thank you, Ms. O'Neil. I am running out of 
time here. So, Sheriff Hinkley, I would like to ask you. Your 
concern, and it is a valid one, you didn't get a heads-up. You 
just got somebody saying we got a bunch of children we want you 
to take care of. That is just not a good way to run an 
operation. There has got to be a better way of coordinating. 
What do you recommend we do next time? What do we tell the 
Federal Government in terms of working with our local people as 
well? I am very close to my local folks here, my local sheriff, 
local police departments. You all want a heads-up. What do we 
need to do?
    Mr. Hinkley. Absolutely. We need--this needs to be 
preplanned. We need to sit down and we need to assess every 
community service that will be affected. We need to decide how 
those affected will be funded. We need to sit down and we need 
to be able to discuss how the Federal law and the State law 
interact. They both have the same intent. But we have to be 
able when this happens, we have to be able to make sure that we 
serve both State and Federal laws. It just, you know, it just 
brings chaos and uncertainty when there isn't precommunication 
when these things are happening. Primarily, funding for local 
services that are affected.
    Chairman Correa. No unfunded mandates is what you are 
saying. Mr. Restrepo, how do we kickstart this Central American 
Minors Program at home?
    Mr. Restrepo. The Central Minors Program is building out 
the capacity in the ways Ariel talked about earlier in terms--
and who is eligible to make the claims here from the United 
States. That is a big piece of the puzzle. In terms of which 
families do we want to allow reunification to take place in. 
Because a lot of these kids are leaving absolutely desperate 
straits, but they are also in search of a parent who is already 
in the United States. So, we need to factor that into how this 
gets built out.
    Chairman Correa. So, you----
    Mr. Restrepo. Yes.
    Chairman Correa. Mr. Restrepo, you bring up an important 
point. Which, Sheriff Hinkley, when I was at the border, those 
kids I talked to them in their language and they said we are 
here to meet up with somebody. They all had somebody. The fact 
that maybe that information was not communicated to you, I 
think, is just a dereliction of duty. We have to make sure all 
this information is funneled to you so you know what the heck 
you are dealing with and you can be part of the solution, as 
opposed to trying to figure how to put out a challenge, you can 
help. So, you know, let us figure out how to help you, Sheriff, 
at the local level.
    Ariel, in the last 20 seconds, how do we kickstart this 
minors program?
    Mr. Ruiz Soto. So, it starts with trying to implement, 
again, the broad outlines in the processing from the countries. 
I think we have learned some really good opportunities in El 
Salvador working with, for example, the embassy there to try to 
make sure there is a better coordination of it within the 
embassy as well.
    Now, a lot of the things that really delayed the program 
the last time that it was in effect, was that there is a long 
delay between processing times and for the people to be able to 
come here. So, if there was something that we could to 
expediate the process, I think that could be beneficial for the 
children, but also for the parents in the process sending that 
clear messaging as well, is something that is important.
    Chairman Correa. A message that the program actually works 
and you can stay home and do it from there.
    Mr. Ruiz Soto. That is correct.
    Chairman Correa. Thank you very much. Ranking Member 
Meijer, you are up for 5 minutes, sir.
    Mr. Meijer. Thank you, Mr. Chairman. I appreciate that we 
are doing another round of questioning because, again, I think 
it is important that we continue to dive in. I want to switch 
slightly and just ask, well, I guess from a baseline, you know, 
we talk and divide things into the push factors and the pull 
factors. You know, we should hope that our country is always 
one that folks want to come to or we will have much bigger 
problems if that is ever not the case.
    At the same time, you know, we have seen a degradation and 
a lack of functioning in our legal immigration system. We have 
seen the polarization of many areas that used to be quite 
bipartisan, or there was a consensus around. I think of border 
security a decade ago being a pretty bipartisan agreement. Then 
some of that has broken down, unfortunately.
    So, I want to ask our panelists a little bit about the 
impact of that pull factor with the impact of rhetoric and of 
expectation. You know, how can elected officials in this 
country be most clear not going far to demonization, but also 
offering a level set of expectations when communicating our 
kind of border situation and our immigration policies and 
conversely, you know, how is that being--what is the best way 
to make sure that that is received accurately so we are not 
creating unfounded hope or expectations within Northern 
Triangle countries? I am not sure if Mr. Soto or Ms. O'Neil or 
Mr. Restrepo, please.
    Mr. Restrepo. I will take a shot, at least an initial shot. 
So, I think a couple of things are important to keep in mind 
here, Congressman. One, is that as hard as it is to believe it 
is not always about us, in terms of what we are saying here and 
how it is being heard in the region. A lot of this movement is 
because of on the ground facts of life in the region that are 
independent of U.S. policy, right? You can see that the example 
of just look at the last 3 kind-of significant increases in 
migration. They have occurred with wildly different postures by 
the United States.
    The highest month on record at the moment is still May 
2019, when we had President Trump's policies firmly in place. 
So, it is not as often about U.S. policy, migration policy, as 
I think often gets kind-of factored into our own debate.
    Mr. Meijer. That is well-understood. That is obviously,----
    Mr. Restrepo. Yes, right.
    Mr. Meijer [continuing]. You know, there is a push and 
pull, you know, we can affect more the pull than the push.
    Mr. Restrepo. Yes. The other thing that I think is--that is 
important here, is how we communicate and how dis- and 
misinformation play a role here. Because a lot of this kind of 
organizing in the migratory flow and in the migratory system is 
done through social media and is done through, quite frankly, 
smugglers who create mis- and disinformation to create kind-of 
the impression that things are different than they are at the 
U.S.-Mexico border. I think that is very much the case right 
now and has been in the last few months. So, this communication 
that matters is taking place in channels that I think sometimes 
as a Government, we don't really understand as well, or 
certainly don't really have the built-in capacity to 
communicate through.
    The last point, and leave it to my fellow panelists, a lot 
of this communication actually doesn't even take place in 
Spanish. Which is another one of those things we need to get 
into our head. It takes place in indigenous languages. Because 
a lot of the folks who are on the move, particularly in a 
country like Guatemala that is so fundamentally divided on 
racial grounds, on ethic grounds. The most vulnerable 
populations are the most marginalized and those are indigenous 
communities and they are being communicated to in indigenous 
languages and being misinformed in indigenous languages by 
folks who are preying on them and preying on their desperate 
situation. I think that is something we all need to think more 
about how we counteract that kind of information flow.
    Mr. Meijer. Thank you. I want to give enough time for Ms. 
O'Neil and Mr. Soto, if they want to chip in on that.
    Mr. Ruiz Soto. Just a 10-second response here. Messaging 
only matters because of policy, of course, it is policy 
setting. But also in this case, messaging matters because it 
lays out the foundation for the other partners in the region to 
actually be able to respond quickly to what we can do.
    Essentially, what I am saying here is that by focusing on 
what the United States is working on, you can allow and provide 
assistance and collaboration with, for example, Mexico and 
Guatemala in this case, who then can also be partners in that 
same messaging and harmonize those efforts.
    Mr. Meijer. Ms. O'Neil.
    Ms. O'Neil. The last thing I would say is messaging would 
help if we have a message to give them that there is another 
alternative besides showing up at the U.S.-Mexico border, 
right? Back to Dan's point about there is only one funnel and 
you just put everybody there. Whatever their concerns are, 
whatever reasons they are coming, if we did have Central 
American Minors Programs, if we did have these things, then you 
can message about those. And lead people in different 
directions that is more effective all around.
    Mr. Meijer. Thank you, Mr. Chairman. I yield back.
    Chairman Correa. Thank you, Mr. Meijer. Now, I would like 
to call on Mr. Bishop for 5 minutes of questions, sir.
    Mr. Bishop. Thank you, Mr. Chairman. I would like to--Mr. 
Restrepo, I think you just said a minute ago that the peak was 
in May 2019. Were you talking about illegal crossings?
    Mr. Restrepo. A recent peak, yes, sir.
    Mr. Bishop. Well, I don't know if anybody can see this. I 
hope this works on it. But this is the chart that, you know, 
that CBP has done. Everybody has seen this chart I will bet. It 
looks like it is coming up. I don't know if one is working. 
Next to it is a line, and my understanding is that the line 
this year is a March interceptions or apprehensions of 172,000 
was the highest in 15 or 20 years based on this. First of all, 
isn't that correct?
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Restrepo. In terms of the number of apprehensions, 
absolutely. But one of the things that is happening right now 
that was not happening in May 2019, is you have very high 
recidivism rates. Where you have, because of Title 42 
expulsion, that 170-some-odd-thousand includes many of the same 
people on multiple occasions in a way that was not true in May 
2019. So, you probably had more unique individuals in May 2019, 
than you do--than you did last month.
    Mr. Bishop. OK. So, I hear your point on that. But also, in 
May 2019, what is interesting is that thing looks like a 
mountain. It goes to the top and then it goes to the bottom. I 
understand the CNN data they are projecting--we will see the 
data in a day or 2, but April is going to be little higher, 
yet. So, it may be 174,000 they were projecting. So, it is 
going to plateau at that 20-year unpreceded peak level. I don't 
know where it goes from there, but in terms of what the 
response has been from the administration, the response is 
oriented, it seems to me, toward increasing throughput. So, 
what they tout as a success is the reduction in the amount of 
time unaccompanied minors were spending in the custody of 
Border Patrol. The reason for that is they say that is 
advantage just because they are getting the hands of ORR, 
Office of Refugee Resettlement. They are going to go--they 
described to us--plans to go from 16,000 beds on the border for 
unaccompanied minors to 60. They are going to turn those beds 
over every 24 days or so and send all those people into the 
United States. Is that a recipe for success?
    Mr. Restrepo. It is a recipe with complying with U.S. law, 
Congressman, which, I think, is successful, right? If you are 
effectively----
    Mr. Bishop. I am not----
    Mr. Restrepo. If you are effectively compliant with----
    Mr. Bishop [continuing]. Asking so much what the law is, I 
am asking--you are talking about what we should be seeking to 
do. It seems to me that, that is flirting with disaster. If the 
policy response from the Federal--from the administration is to 
just bring the people in illegally faster, and distribute them 
through the United States, that can't possible solve the 
problem, can it?
    Mr. Restrepo. Sir, but you just said bring the people in 
illegally. But, again, this is in compliance with the United 
States law. And I think----
    Mr. Bishop. OK,----
    Mr. Restrepo [continuing]. The United States meeting its 
legal obligations, I think is good Government.
    Mr. Bishop. OK. So, you think that's good Government? That 
continuing that pattern and responding to it with that policy 
approach is good Government?
    Mr. Restrepo. I think complying with U.S. law is good 
Government. I think doing all of the things we have been 
talking about to bring these numbers down in a sustainable way 
is also good Government.
    Mr. Bishop. You said that most of these unaccompanied 
minors are coming in to join somebody in the United States. I 
don't know if you said if it was a parent. I would assume that 
given the way they are coming in, presumably those parents or 
those families they are going to join must not be very well off 
or they would be helping them come in some other way, wouldn't 
you think?
    Mr. Restrepo. There is no other way, sir. That is part of 
the problem. That is part of what we are talking about. There 
is not a family reunification mechanism under law today for 
these families to utilize.
    Mr. Bishop. But it is true that it is an arduous and unsafe 
and usually cartel-dominated process by which they are coming 
in, right?
    Mr. Restrepo. Absolutely. Absolutely. I am not arguing that 
is a good way for people to come.
    Mr. Bishop. If not my premise, would you agree with the 
conclusion that for the most part, the folks they are coming to 
join are not economically well-off?
    Mr. Restrepo. The people that are coming to join don't have 
a legal mechanism for them to come join. I don't think we can--
--
    Mr. Bishop. That is not what I meant.
    Mr. Restrepo. I understand, but I don't think you can pass 
judgment--I don't think you can generalize across the board 
about the economic conditions of the folks they are coming to 
meet.
    Mr. Bishop. So, we don't know whether or not those people 
they are coming to meet are capable of providing for their 
needs.
    Mr. Restrepo. As a general matter, I don't think we can 
answer that question.
    Mr. Bishop. You would agree with me that all needs that the 
folks have for Government services in the United States are not 
completely met, wouldn't you? Resources are constrained.
    Mr. Restrepo. Oh, obviously, resources are constrained, 
yes, sir.
    Mr. Bishop. So, to the extent we are intensifying demands 
on those resources, we are worsening that strain.
    Mr. Restrepo. While you are also expanding the tax base. 
Most of these folks end up paying taxes and don't get the 
Government benefits that these taxes pay. So, the economic 
argument here probably cuts in a different direction than the 
one you are assuming.
    Mr. Bishop. OK. Fair enough. I yield back. My time has 
expired.
    Chairman Correa. Thank you, Mr. Bishop. Now, I will call on 
Ms. Harshbarger for another 5 minutes of questions, ma'am.
    Ms. Harshbarger Thank you, Mr. Chairman. One of the ways 
the Biden administration plans to address the root causes of 
migration is by spending another $4 billion in the region. I 
guess I could ask this to Mr. Ruiz Soto. Will sending these 
large amounts of aid money to the Northern Triangle countries 
do anything in that direction or improve the economic 
conditions there?
    Mr. Ruiz Soto. I'm sorry, Congresswoman, I heard most of 
what you said, but it was a little bit choppy. But I think your 
question was how effective would the $4 billion be to meet the 
conditions of the center. So, one of the key things that we 
have looked at and back to your question I think you asked in 
the last round is about how much actually--how much of the 
funding actually goes toward development assistance? I pulled 
it up here and it is between fiscal year 2016 to 2019, about 40 
percent of the funding from the United States went to 
development assistance. The other pieces of it were to 
narcotics and security, actually, and a little bit of economic 
support.
    But what I was trying to get at with my testimony is that 
we need to rethink how we provide U.S. assistance so that we 
can try to target those problems the most effectively. Of 
course, in the short run, as I mentioned, it is going to take 
time and it is going to take consistency across several years 
for these type of programs to actually have a meaningful effect 
for the majority of population. But that should not prevent us 
from focusing on the shorter-term goals for meeting the more 
vulnerable populations there as well.
    So, my answer to your question is that it will take several 
years, if not decades, to try to change the conditions on the 
ground, even with $4 billion right away.
    Ms. Harshbarger OK. Mr. Hinkley, I will tell you what I 
have heard in my district. That is some of these unaccompanied 
minors are being placed here and they can't speak English. They 
can't speak Spanish. They can't read Spanish, and they are put 
into the school systems for the teachers to take care of. You 
know, recently there was a 16-year-old put into the school 
system. So, what that does and you could probably address this 
at the State level, but it goes toward the graduation rate. You 
know, they have to try to incorporate them into the classrooms. 
So, that is an added burden on the school system in these small 
communities. So, do you see that happening where you are at in 
Michigan as well?
    Mr. Hinkley. Yes. So, that has yet to be seen. Again, 
locally, that question has been asked. Certainly it is--it is 
unanswered. So, since we are newly into this, probably less 
than 30 days into what is happening here, that is a question 
that has been posed. But we are just not certain. We have not 
received an answer. But certainly, if that happens, it is 
certainly going to affect economically and locally our 
communities, correct.
    Ms. Harshbarger Yes, and honestly, when the school 
superintendent asked how the children got there, they couldn't 
answer them. So, that was a problem. We need to--that is a 
track-and-trace program that we need in place. Representative 
Meijer knows we have asked where are these people going? You 
know, where are they going? How many are going there? We 
couldn't get an answer.
    But I will go back to Mr. Restrepo, you were talking about 
social media as one of the ways that, of course, we know this, 
social media is one of the ways they pull these people across 
the borders. This is one of the pulls if you want to look at it 
that way. They promise them so many things, these smugglers. It 
is atrocious that we cannot hold these social media companies 
accountable. So, give me some ideas. Tell me what we need to do 
as Congress to stop and hold these social media people 
accountable.
    Mr. Restrepo. Congresswoman, telecommunications law is 
little outside my expertise. But I think at a more practical 
level, I think at the very least, and regardless of what 
Congress decides to do in terms of how to govern or not social 
media platforms, I think the U.S. Government needs to 
communicate much more effectively on those platforms in these 
spaces to combat the kinds of lies that are being sold to 
desperate people in northern Central America--northern Central 
America and southern Mexico. The United States has to be in 
this information battlespace, if you will, in a way much more 
robustly than the United States has ever been. Quite frankly, 
we are not particularly well set up as a Government to 
communicate in that way and as nimbly as we need to be able to 
combat these lies that these smugglers are selling folks.
    Ms. Harshbarger Yes. Well, that is one of things I am 
constantly saying. We need to be better messengers of 
everything we do, period. Get your point across and make it a 
simple addition, not a calculus problem when we are talking to 
people, so.
    Mr. Restrepo. Yes, ma'am, absolutely.
    Ms. Harshbarger I appreciate your answer. I yield back, 
sir.
    Chairman Correa. Thank you very much. Ms. Harshbarger. Mr. 
Bishop, I wanted to ask you if you would like to submit for the 
record your chart, the CBP chart. I have not had a chance to 
look at it.
    Mr. Bishop. Thank you, Mr. Chairman. I would like to do 
that. I understand Mr. Meijer has got it to turn in. Thank you 
for the opportunity. I was about to close.
    Chairman Correa. Thank you very much. We are at the end of 
our second set of questions. I have 1,000 more questions to 
ask, but I will ask our Ranking Member if he would like to go 
for a third set of questions or we can conclude this hearing 
today.
    Mr. Meijer. Mr. Chairman, I leave it in your hands, sir.
    Chairman Correa. Then what I would like to do is conclude 
by saying that this was, in my opinion, a very good start to a 
very challenged issue. Mr. Bishop, I listened to your comments. 
I think at the end of the day, this is the Western Hemisphere. 
This is our backyard. We have got to make sure that we are 
taking care of business in our own backyard. This is going to 
take a discussion on both sides of the aisle because this has 
to go beyond 1 or 2 administrations. We got to keep watching 
long-term, asking the tough questions of how things are 
governed, the economic systems in Central America. A lot of 
tough questions that we as Congresspeople maybe are not used to 
dealing with.
    But you know what? When things go wrong south of us, we 
feel it. We have to begin to take ownership not because we want 
to, but because it is in our own strategic interest to take 
care of business. So, that being said, Mr. Meijer, would you 
like to say a couple of closing statements?
    Mr. Meijer. Mr. Chairman, thank you so much for holding 
this hearing. I strongly agree. You know, what I think we are 
dealing with right now and we have been seeking to have this 
represented both the immediate consequence that we are seeing 
at the border, you know, what we can be doing in the short term 
to address and to manage and mitigate. But then also how we can 
be implementing long-term solutions so we are not just in the 
process of avoiding, getting distracted, and then having this 
be a challenge that resurfaces periodically. So, I appreciate 
your leadership in bringing together these panelists. I am 
grateful for the panelists for sharing their thoughts. To my 
colleagues for bringing a variety of concerns reflecting that, 
you know, immediate to short-term to long-term continuum that 
we must be operating on. I look forward to continuing to make 
sure that we are improving not only our border security, but 
our immigration process, and making sure that we recognize that 
our region is more secure, our neighborhood is more secure when 
our partners in the countries who surround us are secure as 
well. So, thank you, Mr. Chairman.
    Chairman Correa. Thank you, Mr. Meijer. I want to thank all 
the witnesses for their valuable time and testimony today, and 
the Members for their questions. I don't know about you, but I 
walk away with more questions today than I walked in earlier. 
It means we got a lot of work to do.
    The Members of the subcommittee may have additional 
questions for the witnesses. We ask you to respond to those 
questions in writing expeditiously. Without objection, the 
committee record will be kept open for 10 days. Hearing no 
further business, the subcommittee stands adjourned. Thank you 
very much.
    [Whereupon, at 3:36 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
